<html>
<title> - 75 YEARS AFTER THE HOLOCAUST: THE ONGOING BATTLE AGAINST HATE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





                     75 YEARS AFTER THE HOLOCAUST: 
                    THE ONGOING BATTLE AGAINST HATE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 29, 2020

                               __________

                           Serial No. 116-86

                               __________

      Printed for the use of the Committee on Oversight and Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov 
                             
                             
                             
                             
                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
39-577 PDF               WASHINGTON : 2021
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Ro Khanna, California                Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Ralph Norman, South Carolina
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Jimmy Gomez, California              Fred Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California
Deb Haaland,, New Mexico

                     David Rapallo, Staff Director
                       Russ Anello, Chief Counsel
                          Amy Stratton, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director 
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                                              
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on January 29, 2020.................................     1

                               Witnesses

* Opening statements and the prepared statements for witnesses 
  are available at:  https://docs.house.gov.
Nat Shaffir, Holocaust Survivor
    Oral Statement...............................................     7
Brad Orsini, Senior National Security Advisor, Secure Community 
  Network
    Oral Statement...............................................    10
Jonathan Greenblatt, Chief Executive Officer, Anti-Defamation 
  League
    Oral Statement...............................................    12
Hilary O. Shelton, Director, Washington Bureau and Senior Vice 
  President for Advocacy and Policy,National Association for the 
  Advancement of Colored People
    Oral Statement...............................................    13
Dore Gold (Minority Witness), President, Jerusalem Center for 
  Public Affairs
    Oral Statement...............................................    15
Dr. Edna Friedberg, Historian, United States Holocaust Memorial 
  Museum
    Oral Statement...............................................    17

                           INDEX OF DOCUMENTS

                              ----------                              

The documents listed below are available at: https://
  docs.house.gov.

  * Letter and article of explanation; submitted by Rep. Hice.

  * ``Bail Reform Is Setting Suspects Free After String of Anti 
  Semitic Attacks'', article, submitted by Rep. Roy.

  * ``Barr Says Justice Department Will Get More Involved in 
  Fighting Anti Semitic Attacks'', article; submitted by Rep. 
  Roy.


 
                     75 YEARS AFTER THE HOLOCAUST: 
                    THE ONGOING BATTLE AGAINST HATE

                              ----------                              


                      Wednesday, January 29, 2020

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn B. 
Maloney [chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Clay, Lynch, 
Connolly, Krishnamoorthi, Raskin, Rouda, Wasserman Schultz, 
Sarbanes, Welch, Speier, Kelly, DeSaulnier, Lawrence, Plaskett, 
Khanna, Gomez, Ocasio-Cortez, Pressley, Tlaib, Porter, Haaland, 
Jordan, Foxx, Massie, Meadows, Hice, Grothman, Comer, Gibbs, 
Roy, Miller, Green, Armstrong, Steube, and Keller.
    Also present: Representatives Malinowski, and Doyle.
    Chairwoman Maloney. Good morning. The committee will come 
to order. And without objection, the chair is authorized to 
declare a recess of the committee at any time. With that, I 
will now recognize myself to give an opening statement.
    Two days ago, the entire world came together to mark 
International Holocaust Remembrance Day. In addition, 75 years 
ago this week, in January 1945, the Auschwitz-Birkenau 
concentration camp was liberated from the Nazis. It was one of 
the most infamous sites of the Nazi genocide. More than 1 
million people were murdered there.
    The purpose of today's hearing is to commemorate these 
grave anniversaries, to remember those we lost, and to honor 
those who are still with us. But it is not enough to simply 
recognize these dates. We must also contemplate what led to 
these atrocities. We must remember the Holocaust in order to 
help combat bigotry, hate, and violence of all kinds today.
    I am so pleased to have our distinguished panel here today. 
I have asked them to help us come together on today's solemn 
occasion, help us rise above issues that may divide us, and 
help us unify our efforts around a common purpose of hope and 
inclusion. On this day of all days, I hope we can all do that.
    One issue we will discuss today is what we can do to ensure 
that future generations never forget the lessons of the 
Holocaust. This may sound hard to believe, but the Pew Research 
Center recently issued a report finding that fewer than half of 
Americans surveyed knew how many Jews were killed in the 
Holocaust. Another report found that only 38 percent of 
American teens surveyed knew the Nazis killed 6 million Jews, 
and only a third knew that Hitler was democratically elected.
    The best way I know to help people remember the Holocaust 
is to hear firsthand from the people who went through it. We 
are very fortunate to have that opportunity today. In addition, 
the Holocaust Memorial Museum, just a few blocks from here, is 
an outstanding and gripping institution, dedicated to 
remembering the Holocaust in order to fight hate today.
    I am also pleased to announce that on Monday, the House of 
Representatives passed bipartisan legislation with 393 votes 
that I introduced and authored called the ``Never Again 
Education Act,'' to give teachers additional resources to teach 
about the Holocaust. I hope the Senate will pass this bill and 
send it to the President as soon as possible, because the 
lessons of the past must inform our approach to fighting hate 
today.
    For example, this morning, we will hear testimony about the 
horrific shooting at the Tree of Life Synagogue in Pittsburgh, 
the most deadly assault against the Jewish community in 
American history. After that massacre, a group of Holocaust 
survivors who volunteered in the Holocaust Museum wrote to the 
Pittsburgh Jewish community in solidarity explaining why they 
dedicated their lives to sharing the horrors they experience.
    They wrote, and I quote, ``We seek to remind people, 
especially young people, our country's future leaders, that 
hate can never be ignored. Complacency is dangerous. Standing 
up and pushing back is the only way we can make a better 
future,'' end quote. Unfortunately, there has been a sinister 
increase in hate crimes recently, not only against Jewish 
communities, but against African Americans, Muslims, 
immigrants, and others.
    In November, the FBI released data showing the highest 
number of reported violent hate crimes in the United States in 
16 years. The number of hate groups exploded to more than 1,000 
in 2018. This was a record high and a 30 percent increase over 
the past four years.
    To take just one example, when we watched the gruesome 
video footage of the Neo-Nazi attacks in Charlottesville, we 
see in excruciating detail the evil that still poisons our 
society to this day. I want all of our members to know that our 
committee is dedicated to fighting bigotry, hate, and violence 
of all kinds.
    Today's hearing, which commemorates the 75th anniversary of 
the liberation of Auschwitz-Birkenau, is one in a series we are 
holding on these issues in the 116th Congress. Chairman Raskin 
has held four hearings in the Civil Rights and Civil Liberties 
Subcommittee to confront white supremacy, religious 
persecution, and our government's response.
    Chairman Lynch, from the National Security Subcommittee, 
has worked with Chairman Raskin to investigate the national 
security implications of these threats. Going forward, we are 
planning additional hearings, including one on voter 
suppression in minority communities, anti-Muslim 
discrimination, anti-immigrant actions, and issues facing the 
LGBTQ communities.
    I have been in touch with many of you over the past weeks, 
and I hope you'll come to me with any additional thoughts, 
ideas, or proposals that you think our committee should take up 
as part of this series.
    We mark this day of remembrance just weeks after a recent 
spate of anti-Semitic attacks in New York City, including an 
attack at a rabbi's home during the festival of Hanukkah. It 
was heartening to participate in the solidarity march in New 
York following these attacks, and I hope we can work together 
with that same spirit of solidarity today.
    I now want to recognize Ranking Member Jordan, but before I 
do, I'd like to thank him personally for his support of the 
Holocaust Never Again Education Act. Thank you, Mr. Jordan, and 
you're recognized.
    Mr. Jordan. Thank you. Thank you, Madam Chairwoman. Thank 
you for calling this hearing today, and thank you to all our 
witnesses for being with us today and your testimony.
    I want to apologize on the front end, I have to head across 
to the other side of the Capitol here in a few minutes. There's 
a proceeding in the U.S. Senate that's been going on for a 
couple weeks. I need to get over there for a meeting.
    On Monday, we recognized the International Holocaust 
Remembrance Day and the 75th anniversary of the liberation of 
Auschwitz. We pause to remember the 6 million innocent lives 
taken by this evil. As Vice President Pence said last week, we 
have, quote, ``an obligation of remembrance to never let the 
memory of those who died in the Holocaust be forgotten by 
anyone anywhere in the world. We must never forget the horrors 
of the Holocaust, and we must always condemn anti-Semitism in 
all its forms.''
    I would like to take a moment to recognize Mr. Nat Shaffir, 
a witness who I just met, here today with us, who is also 
himself a Holocaust survivor. It's an incredible honor to have 
you with us today, sir. Thank you. Thank you, again, for your 
testimony.
    One of the most important ways in which the United States 
continues to support the Jewish people is through our 
unwavering support for the state of Israel. Since the formation 
of Israel in 1948, the United States has had a special bond 
with the Israeli people. Since President Trump took office 
three years ago, he has made it his mission to strengthen this 
important bond.
    President Trump has worked to ensure the whole world knows 
that the United States stands firmly with the state of Israel. 
President Trump, in just three years, in just three years, 
here's what has happened: He's recognized the Golan Heights as 
a part of Israel; he has withdrawn from the failed Iranian 
nuclear deal; he has taken decisive action to eliminate 
Soleimani, one of the greatest terror threats to Israel and in 
the Middle East; he has opposed the boycott, divestment, and 
sanction movement championed by those who want to diminish 
Israel; he's issued an executive order to curtail anti-Semitism 
on college campuses around the United States; and just 
yesterday, President Trump released a groundbreaking peace 
plan.
    But maybe most importantly, President Trump fulfilled a 
decades'-old promise to the people of Israel in recognizing 
Jerusalem as the capital of that state. Past Presidents have 
routinely made this promise and failed to deliver. 1976, former 
President Carter ran on a platform that said, quote, ``We 
recognize the report for the established status of Jerusalem as 
the capital of Israel. The U.S. Embassy should be moved from 
Tel Aviv to Jerusalem.''
    In 1993, former President Clinton said, Jerusalem is still 
the capital of Israel. In 2000, former President Bush said, 
``As soon as I take office, I will begin the process of moving 
the U.S. Ambassador to the city of Israel as its chosen 
capital.'' And in 2008, Democratic nominee for President, 
Barack Obama, said, Jerusalem will be the capital of Israel. 
I've said that before and I will say it again: President Trump 
fulfilled that promise last year.
    Recognizing Jerusalem as the capital of Israel, and 
officially moving our embassy there shows the Israeli people 
that they have the support of the United States of America. We 
should all be proud of this close friendship with Israel and 
the Israeli people, and the work the President has done to 
solidify the relationship.
    As the committee continues to address hate crimes and 
violent extremism, we would be wise to listen to and learn from 
the testimony today. Thank you, again, Madam Chairwoman, and I 
yield back.
    Chairwoman Maloney. Thank you very much.
    I would now like to recognize two of my colleagues, 
Representative Lawrence and Representative Wasserman Schultz. 
They are both founding Members of the congressional Caucus on 
Black-Jewish Relations. Mrs. Lawrence.
    Mrs. Lawrence. Thank you, Chairwoman Maloney, for holding 
this hearing and drawing the attention to the alarming rise of 
anti-Semitic acts and hate crimes in the United States. I'm 
glad to see our community--our committee will be using our 
oversight authority to find innovative ways for the government 
to combat anti-Semitic and the rise in white supremacy 
ideology.
    Last year, I formed the congressional Caucus on Black-
Jewish Relations to discuss the relationships between African 
American and Jewish communities; also to highlight our shared 
history of combating racism, and how the two groups in this 
country can work together to combat hate crimes moving forward. 
Our shared history of slavery and the Holocaust has given us a 
heightened sensitivity to hatred and to racism in our country.
    The two cochairs, or the cochairs of the caucus--it is 
bipartisan--are Representatives John Lewis, Lee Zeldin, Will 
Hurd, and my colleague on this committee, Debbie Wasserman 
Schultz. We are all committed to advancing the needs of these 
two communities. Unfortunately, anti-Semitic acts have become 
far too prevalent in our society.
    Since the beginning of 2020, already--we are still in 
January--there has been at least three reported anti-Semitic 
incidents in my home state of Michigan, and more than 25 across 
the United States. The last few years have seen a disturbing 
spike in anti-Semitic attacks, with more than 1,800 reported in 
2018 alone, according to the Anti-Defamation League. The most 
recent audit of anti-Semitic incidents, a 57 percent increase 
over 2017.
    As local communities experience this substantial rise in 
hate crimes, the Federal Government must assist state and local 
government and law enforcement entities to develop ways to 
combat a rise in identity-based hate crimes. This pattern of 
hate illustrates a disturbing trend in our country that must be 
reversed. Hate-filled, anti-Semitic acts will not be tolerated, 
and I will not stand by idly as predators of these senseless 
attacks seek to sow fear across our country.
    The First Amendment gives all Americans the right to 
freedom of religion and will not allow--and we will not allow 
that right to be hindered by a small fraction who use their 
awful agenda to spread hate and crime.
    I look forward to working with the leadership of this 
amazing Chairwoman Maloney of this committee, members of the 
Caucus on Black and Jewish Relations, and all the Members of 
Congress. In the words of Martin Luther King, ``Injustice 
anywhere is a threat to justice everywhere.'' And I want to 
thank you, again, Madam Chair, for holding this hearing.
    Chairwoman Maloney. Thank you.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Madam Chair. I thank the 
gentlewoman for convening this important hearing.
    I serve proudly as the first Jewish woman to represent 
Florida in the U.S. Congress, and I just returned from Israel 
and Auschwitz-Birkenau with a bipartisan delegation led by 
Speaker Nancy Pelosi for the 75th anniversary of its 
liberation.
    Over 1 million men, women, and children lost their lives at 
Auschwitz-Birkenau alone. We walked train tracks that 
transported innocent people to captivity in the gas chambers, 
and visiting this historic monument to genocide only reaffirmed 
for me that we cannot ignore the resurgence in hate that we see 
now.
    To live the moral imperative of ``never again,'' we must 
hold hearings like this and shine a light on bigotry and white 
supremacist ideology. It is important to underscore for this 
hearing that the fight against anti-Semitism and bigotry is 
about more than support for the state of Israel.
    The story of the Shoah must also be clear: This systematic 
mass extermination did not happen overnight. It began with hate 
speech, harassment, and attacks on vulnerable communities. As 
these symptoms reemerge, we must speak out and act. Today, we 
will do that.
    We must also educate the American people by highlighting 
the amazing accomplishments of persecuted communities in the 
United States during important events, like the upcoming Black 
History Month in February, and the Jewish American Heritage 
Month, which we celebrate in May.
    Educating one another about our unique cultures, 
traditions, and accomplishments, when so many people across the 
country are unfamiliar with minority communities' achievements 
and traditions is essential.
    I bet if each of us thinks about it, there are many of us 
who have populations of communities in our own districts that 
are either tiny or minuscule, and the first time that many 
Members of Congress interact with a minority community is when 
they join the U.S. Congress. That is why it's important to hold 
hearings like this one today, Madam Chair, and I appreciate our 
ability to make sure that we can rid our Nation of every denial 
of one another's humanity.
    I want to thank the panelists, especially, for being here, 
for being in the fight every day to make sure that we continue 
to shine a spotlight and root out bigotry and hate in all its 
forms.
    I particularly want to thank my colleague and dear friend, 
Congresswoman Brenda Lawrence, for her leadership and vision to 
establish the congressional Caucus on Black-Jewish Relations, 
and I am proud to join her as a cochair of that organization 
and look forward to our work.
    Thank you. I yield back the balance of my time.
    Chairwoman Maloney. Thank you.
    I would now like to welcome our witnesses. And I recognize 
Representative Raskin to introduce our first distinguished 
witness.
    Mr. Raskin. Thank you, Madam Chair, for calling this 
hearing, and for giving me an opportunity to introduce to 
everyone a remarkable constituent from my district. Nat Shaffir 
was a little boy in Romania when a policeman arrived to arrest 
him, his two sisters, and his parents, and to take them to a 
ghetto for the crime of being Jewish. Astonishingly, 
remarkably, they survived the Holocaust, but Mr. Shaffir lost 
32 other family members to the genocidal war waged upon the 
Jewish community of Europe.
    Since the Holocaust ended, the civilized world has come 
together with one refrain: Never again. Yet, we live in a time 
of resurgent authoritarianism, propaganda, conspiracy theory, 
mass psychological manipulation, human rights violations, anti-
Semitism, racism, and religious persecution, fanaticism, and 
violence.
    Just yesterday, the Civil Rights and Civil Liberties 
Subcommittee, Madam Chair, held a hearing on accelerating 
global religious persecution taking place under the guise of 
the blasphemy, heresy, and apostasy laws and ideological 
reeducation, including the internment of millions of Muslim 
Uyghurs and the genocide against the Rohingya in Burma.
    Here at home, the last decade of dirty work by Cambridge 
Analytica and Vladimir Putin injecting racial and religious 
poison into the social media has helped to propagandize and 
activate the most dangerous and unstable elements of our 
society, creating a wave of white supremacist violence and 
terror against synagogues, black churches, Jews in their homes, 
Hispanics shopping at Wal-Mart, and anyone deemed to be an 
outsider.
    We have got to get ahold on the convergence of rising white 
supremacist violence, and off-the-charts gun violence. We must 
continue to pressure the Federal Government, as we've been 
doing in this committee, to devise a strategic plan to combat 
the rise of violent white supremacy and domestic terror here in 
the United States.
    Today, we can focus on Mr. Shaffir, whose indomitable and 
soaring resilience is a lesson to all Americans in these dark 
times. Last year, at 82 years old, remarkably he became the 
only Holocaust survivor known ever to scale Mount Kilimanjaro, 
a feat that he accomplished by keeping in mind the words that 
his father repeatedly spoke to him during the Holocaust: 
``Never give up.'' We are honored by Mr. Shaffir's presence, 
and I yield back to you, Madam Chair.
    Chairwoman Maloney. Thank you so much for that 
introduction, and we are honored to have you, Mr. Shaffir. And 
congratulations on your recent achievement. We look forward to 
your testimony.
    We are also fortunate to have Brad Orsini. He is the senior 
National Security Advisor for the Secure Community Network and 
the former director of community security for the Jewish 
Federation of Greater Pittsburgh. I want to thank 
Representative Doyle for his assistance in putting us in touch 
with him, and we look forward to his testimony. Mr. Doyle may 
be able to join us later. He has a conflict right now.
    We also welcome Dr. Edna Friedberg. She is a historian for 
the United States Holocaust Memorial Museum.
    Jonathan Greenblatt is the chief executive officer for the 
Anti-Defamation League.
    And Hilary Shelton is the director of the Washington Bureau 
and the senior vice president for advocacy and policy for the 
National Association for the Advancement of Colored People.
    We also welcome Ambassador Dore Gold. He is the president 
of the Jerusalem Center for Public Affairs, and the former 
Israeli Ambassador to the United Nations, and the former 
director general of the Israel Ministry of Foreign Affairs.
    So, if you would all rise and raise your right hand, I will 
begin by swearing you in. Do you swear to affirm that the 
testimony you are about to give is the truth, the whole truth, 
and nothing but the truth, so help you God? I do. Let the 
record show that the witnesses answered in the affirmative. 
Thank you and be seated. The microphones are very sensitive so 
please speak directly into them. And without objection, your 
statement will be made part of the record.
    With that, Mr. Shaffir, you are now recognized for five 
minutes for your opening statement. Thank you.

          STATEMENT OF NAT SHAFFIR, HOLOCAUST SURVIVOR

    Mr. Shaffir. Thank you, Chairman Maloney, Ranking Member, 
guests, and Congresspeople. I'm honored to be here today and 
share with you a little bit about my personal experience----
    Chairwoman Maloney. Pull the microphone a little closer to 
you so we can hear better. Thank you.
    Mr. Shaffir. I'm honored to be here and share with you a 
little bit of my personal experience as to what happened to me 
and my family during the Holocaust years. In 1924, my father 
established a farm on the northeastern part of Romania. For 18 
years, he and my mother worked the farm. My two sisters and 
myself were born there. I went to kindergarten. I started first 
grade. Everything was okay in the farm for a child, in 
particular.
    One of our neighbors was a priest who used to come by once 
a week to ask my father for a donation to the church and also 
some dairy products for some of his constituents, or some of 
his congregates who could not otherwise afford it. In 18 years, 
my father never once refused such a weekly request.
    One day, in November 1942, the same priest showed up; 
however, this time he showed up with an armed police officer 
and two armed guard soldiers, also armed. We did not know why 
that happened this time, so we all went to find out what was 
going on. Whether we came close to the priest, he's looking at 
the police officer, pointing at us and saying, ``estee 
Jidans,'' ``these are Jews.'' So, we were turned into the 
authorities by a priest.
    The police officer stepped forward, and he said to us we 
have four hours to vacate the farm because he has orders to 
relocate us in a different part of the city. Now, at this 
point, my father and my mother both tried to convince him, 
perhaps he can forget the order for relocating us, but it 
didn't help. At this point, we also knew that--where we were 
going, because in 1941, the ghetto of Iasi was established. It 
was a year earlier.
    After four hours were over, we came into the house, we 
packed whatever valuables we had. When the four hours were 
over, the policeman told us it was time for us to leave, and we 
were escorted to the ghetto. Once we arrived there, we were 
turned over to the ghetto police where we received our 
orientation, what we can and cannot do, mostly things that we 
were not able to do, no longer able to go to school. Jewish 
people could no longer participate in public prayers.
    While we were there, we were given ration cards and also in 
the same time, we were given five yellow stars with the word 
``Jidan'' on it, which means Jew, that we had to wear 
constantly on our left lapel. Every man between the ages of 18 
and 50 would be going to work on a daily basis. My father's job 
was to sweep the streets in the summertime, and shovel the snow 
in the wintertime and clean the market area. My mother was an 
orderly in the hospital.
    At this point, we didn't know what we can do to survive 
primarily, because there was a certain mode of survival that we 
tried to constantly focus on. My father used to go to work on a 
daily basis. Then one day in 1943, in June 1943, a big sign was 
posted in the ghetto area that said any individual male in 
particular, between the ages of 18 and 50, must assemble at the 
yard--or the main ghetto square and bring extra clothing if 
they had any.
    The night before my father was supposed to be assembled, we 
all cried. We didn't sleep that day, that night. The next 
morning we all cried. We didn't know when or if we were ever 
going to see our father again. The last minute before he left, 
I asked my father, I asked him if it's okay for me to walk with 
him to the assembled area. He agreed.
    We walked hand in hand until we got to the area that he was 
supposed to be assembling, and at that point, we did not say 
anything to each other. We just held on tight. We arrived to 
the assembled area. My father said, Nat, it's time for you to 
go back.
    At that time he turned to me, put both his hands on my 
shoulders, and he said, five words to me. These five words will 
remain with me for the rest of my life. He said, ``Nat, take 
care of the girls.'' I'm--at this point I'm seven years old. 
You cannot imagine the pressure that puts on a seven-year-old 
boy. I could've told him, I'll try, I'll do my best, but I 
didn't. What I said, ``I'll take care of the girls, Papa. I 
will.''
    From that point on, no matter how hard it was for me 
personally and how easily it was for me to give up, I couldn't 
because I promised my father that I will take care of the 
girls. The same day, that day, my father was shipped to a 
forced labor camp. We didn't hear from him for many, many 
months.
    While he was away, I tried to do my best to get our family 
to survive. So, one of the things that we received in the 
ghetto was ration cards. The ration cards were apparently for 
bread, which allowed us to receive a quarter of a loaf of bread 
per person every two days, and five liters of kerosene.
    To receive these rations, we had to walk out of the ghetto. 
Since I was--my sister was two years older than me, my father 
would send out my sister to get these ration cards, these 
rations, until one day he found out that some of the hooligans 
are picking on Jewish girls.
    From that point on, he started sending me out to get these 
rations. The same hooligans also picked on Jewish boys. Many 
times I would come home beat up, bloody face, but that never 
hurt so much as it did when they took away my bread, which 
meant for the next two days we had nothing to eat.
    When my mother realized what happened for the first time, 
she also realized this would happen again, and from that point 
on, she started rationing us from our own rations and tried to 
save a little bit on every time we received some of these 
rations. This went on for a while.
    All our family who was left back in Hungary, who remained 
in Hungary, and we know from historical that the Nazis invaded 
Hungary in the March 1944. Between April 1944 and July 1944, 
440,000 Jews were deported to Auschwitz. Among these 440,000 
were 33 members of my family.
    Immediately, the old ones and the young ones were 
immediately put to death in the gas chambers. Those who were 
able to work were sent to different camps. Most of them died of 
starvation. We don't know when or where. We only know the fate 
of three, and that's one of my grandfathers and two of my 
uncles who were in Auschwitz at the end.
    My grandfather died of starvation a month before he was 
liberated. Two of my uncles survived liberation, one was 21 
years old and one was 22 years old. Each one weighed 65 pounds. 
You can imagine what they looked like. When you say to 
somebody, this individual looked like a walking skeleton or a 
skin and bones, that's pretty much what they looked like.
    When the Red Cross came into this camp and saw the 
conditions these people were in, they immediately put them on 
ships and taken them to Sweden to a sanatorium to recuperate. 
One of the two brothers, one of these two uncles unfortunately 
did not make it to Sweden. He died on the way and he was buried 
at sea. One did survive. He was in a sanatorium, in a hospital 
for four years to gain his weight and his health back. 
Eventually he immigrated to the United States.
    We were liberated by the Russians in the early summer of 
1945. We still never heard from my father what happened. We 
didn't know if he was alive or dead. Once we were liberated, we 
were able to go back to school; however, the anti-Semitism was 
still very strong under the Communist regime.
    In 1947 after--in 1945, after the war was over, finally my 
father was able to come back to us. And in 1947, he realized 
there's no longer a future for Jewish people in Romania, and we 
decided to leave. The only country that would accept refugees 
at that time was Palestine. We applied for an exit visa from 
the authorities, and every time we applied to leave the 
country, we received a return reply, ``Denied.''
    So, constantly we tried for two years. Eventually, my 
mother was able to bribe one of the officials that was in 
charge of giving out the visas, and in 1950, we received a visa 
to leave for Israel. In the meantime, I lived in Israel for 10 
years. I served in an elite unit of the army. I married. I had 
five children, 12 grandchildren. All of my children and 
grandchildren are named for one of these people who were 
murdered by the Nazis.
    And I thank you for listening. Appreciate it.
    Chairwoman Maloney. Thank you so much for sharing your 
story.
    We'll now hear from Mr. Orsini.

  STATEMENT OF BRAD ORSINI, SENIOR NATIONAL SECURITY ADVISOR, 
                    SECURE COMMUNITY NETWORK

    Mr. Orsini. Chairwoman Maloney, Ranking Member Jordan, 
distinguished members of the committee, thank you for giving me 
the opportunity to address you on this very important issue.
    January 2017, I retired after 32 years of Federal 
Government service, four years in the United States Marine 
Corps, and 28 years as a special agent in the FBI. I joined the 
Jewish Federation in Pittsburgh, and I developed a security 
program as their first communal security director.
    In the first synagogue I ever visited, I asked if they 
received hate mail. The answer was instantly yes. I then asked 
them, what do you do with that hate mail? They said they throw 
it away. That would not be the first time I heard that.
    Our goal from that point on was to conduct an awareness 
campaign stressing the importance of reporting every sign of 
hate, and provide the tools necessary for our community to 
build a conscious cultural security. We followed the ``see 
something, say something'' model, and we requested our 
community to commit to action.
    Over the next 18 months, until October 27, 2018, the 
Pittsburgh community continued to experience anti-Semitism on a 
routine basis. However, this time, our community started to 
report incidents. We would no longer ignore any sign of hate 
and encouraged our community not only in Pittsburgh, but all 
over the country, to report every incident.
    In Pittsburgh, we developed a program that was based on 
three prongs to keep our people safe: The first prong was 
assessment of our organizations and buildings which lead to 
target hardening and the development of emergency operation 
plans; No. 2, constant training and drills for our people; and 
three, threat mitigation and a way to facilitate action from 
law enforcement.
    To fully understand what happened on October 27, you need 
to understand the measures our community took regarding our new 
communal security program, the 18 months leading up to the 
shooting. Several measures that are outlined more fully in my 
written statement did make a difference on October 27 to help 
numerous people survive, to get out and to help others protect 
themselves and get to safety. Unfortunately, we still lost 11 
lives that day.
    Our communal security program prior to October 27 trained 
over 6,000 people in Pittsburgh and various security protocols, 
to include active shooter and stop the bleed training. We have 
now taken and use daily Tree of Life survivor testimonials to 
train all over the country to demonstrate why people lived that 
day, and the importance of training. Simply stated, training 
help minimize loss of life, and it sure did that day.
    It's unfortunate that we have to teach our Jewish community 
and prepare our community to live three to five minutes prior 
to law enforcement responding through various training 
protocols.
    Two other very important training initiatives that took 
place involved the Pittsburgh Police Department. First is our 
Holocaust police initiative, where every Pittsburgh police 
officer spends four hours at our Holocaust center in Pittsburgh 
prior to graduating the police academy.
    Second, the Pittsburgh Police Department started and 
initiated a rescue task force. On 10/27, it was the first time 
the task force was deployed, and we had a trauma surgeon 
rendering lifesaving first aid in the building while shooting 
was going on.
    When it comes to tracking anti-Semitism and threat 
mitigation, we have partnered with the FBI. This has been 
instrumental, and we forged an important relationship between 
the community and law enforcement. As soon as we receive any 
anti-Semitic threat through any platform from our community we 
report it through our virtual command center, which is linked 
directly to the FBI. They see everything we do in real time to 
track, assess, and mitigate the threat.
    On October 27, 2018, our community witnessed the deadliest 
anti-Semitic attack in our Nation's history. The shooting has 
had a profound impact on Jews across the country. In 
Pittsburgh, our communal security efforts prior to the shooting 
were focused on preparedness through awareness and education.
    Not everybody in the community thought it was necessary to 
prepare or take an active role in their own security. Some left 
that solely up to law enforcement, or ignored the issues and 
the rise in anti-Semitic activity. After the shooting, that all 
changed. It not only changed in Pittsburgh, but in Jewish 
communities across the country.
    I will never forget walking through that horrific crime 
scene on October 27, and witnessing destruction that one man 
caused because of hateful anti-Semitism. I am certain that 
those who were in that building that day, to include our 
community members as well as first responders, will never 
forget those images as well.
    People were murdered simply because they were Jews gathered 
to pray. For a countless number of people, that image will 
never be erased. It cannot, nor will it ever, be forgotten. We 
need to build a strong, resilient Jewish community.
    I have now spent over 35 years of my professional career in 
protecting the country and now the Jewish community. It is an 
absolute honor to serve the Jewish people, and I will continue 
to spend the rest of my professional career working to protect 
the Jewish and other faith-based communities.
    Thank you for your attention, and I look forward to 
answering any questions you may have.
    Chairwoman Maloney. Thank you so much.
    Mr. Jonathan Greenblatt.

  STATEMENT OF JONATHAN GREENBLATT, CHIEF EXECUTIVE OFFICER, 
                     ANTI-DEFAMATION LEAGUE

    Mr. Greenblatt. Good morning, Chairwoman Maloney. I want to 
thank you and all the distinguished members--am I on here?--all 
the distinguished members of the committee.
    Thank you. Good morning, Chairwoman Maloney and all the 
distinguished members of the committee. On behalf of ADL, thank 
you for the opportunity to testify here today and to share our 
perspective. It's a privilege for me to be here alongside this 
distinguished panel, but I want to particularly recognize Mr. 
Shaffir, and just acknowledge your strength and your courage, 
which is an inspiration to all of us.
    Mr. Shaffir. Thank you.
    Mr. Greenblatt. I'm feeling particularly moved because I 
just returned from the World Holocaust Forum in Jerusalem, 
where more than 45 world leaders recommitted themselves to 
addressing hate. It was a pleasure to see a bipartisan 
delegation from Congress there, including Congresswoman 
Wasserman Schultz.
    I also want to give a special thank you to you, Chairwoman 
Maloney, for leading passage of the Never Again Education Act 
in the House this week. ADL already is working to buildupon the 
11 states that mandate Holocaust education and genocide 
education in their public school curriculum. We will support 
you as the bill moves to the Senate.
    Chairwoman Maloney. Thank you.
    Mr. Greenblatt. You know, when I was a boy, I could ask my 
grandfather, who was a refugee from Nazi Germany, what it was 
like. I could speak to people in my synagogue in Bridgeport, 
Connecticut, in my community who had survived, but that's no 
longer the case. As time passes, memory fades.
    A Pew study released last week indicates that millennials 
know less about the Holocaust than prior generations. ADL's 
Global 100 poll determined that only an estimated 54 percent of 
the entire world population has even heard about the Holocaust, 
and others think that it's just not important.
    A survey that ADL released this morning reported that 19 
percent of American adults say that, quote, ``Jews still talk 
too much about the Holocaust,'' this at a time when hate crimes 
are up, when violence is up against Jews and other religious 
minorities and other marginalized communities.
    From a college football coach in Michigan defending Hitler 
to state trooper cadets in Wisconsin snapping Nazi salutes to 
queer activists in Chicago getting booted out of a pride march 
because they carried a flag bearing a Jewish symbol, to visibly 
identifiable Jews harassed on a subway in Manhattan or 
assaulted in broad daylight in Brooklyn, instants of anti-
Semitism are up.
    ADL's most recent audit of anti-Semitic incidents recorded, 
as was noted earlier, more than 1,800 anti-Jewish acts in 2018. 
That's the third highest total we have ever tracked in 40 
years. And the hate is getting more violent, not just against 
Jews, but against all minority groups. From Charlottesville to 
Pittsburgh, from Poway to El Paso, from Jersey City to Monsey, 
extremists feel emboldened in this environment to act out their 
hate.
    What might surprise you as it relates to anti-Semitism is 
this increase of incidents that is happening against a backdrop 
of steady, low levels of anti-Semitic attitudes among the 
general population. So, why is that?
    First, we have leading voices in our Nation who are 
normalizing anti-Semitism, who are making hate routine. They 
are using anti-Semitic tropes about globalists controlling 
government, about bankers trying to destroy our borders, 
accusing Jews of having dual loyalty or disloyalty, attacking 
the Jewish state with the same myths they use to demonize the 
Jewish people, and all of this destigmatizes anti-Semitism. All 
of this renders intolerance routine.
    Second, the Internet and social media and online game 
environments are spawning and spreading hate, particularly 
Holocaust denialism, the original fake news. With nearly 2.5 
billion members, Facebook is the largest and most established 
of these offenders. Its policies still don't classify Holocaust 
denial as hate speech. YouTube has made some progress, but not 
nearly enough.
    But just as these market leaders have used ingenuity and 
innovation to reinvent media and build billion-dollar brands, 
they now need to apply those same capabilities to remove hate 
from their platforms and build stronger, better societies.
    Let me conclude with some key recommendations: No. 1, 
leaders must speak out against hate at every opportunity; No. 
2, social media platforms must act more responsibly and ban 
Holocaust denial for what it is: unacceptable; No. 3, the Never 
Again Education Act must become law; No. 4, Congress should 
pass the No Hate Act of 2019 to spark improved local and state 
hate crime training and prevention; No. 5, Congress should 
fully fund the Nonprofit Security and Grant program to protect 
all at-risk nonprofits and specifically faith-based 
institutions; and finally, we would implore Congress to pass 
the Domestic Terrorism Prevention Act to ensure that the 
Federal Government is appropriately allocating resources to the 
threat of white supremacy and radical extremism today.
    I applaud the leadership of this committee, Ms. Chairwoman, 
and thank you for the opportunity to be here, and I look 
forward to your questions.
    Chairwoman Maloney. Thank you so much.
    Mr. Hilary O. Shelton, thank you for coming.

STATEMENT OF HILARY O. SHELTON, WASHINGTON BUREAU & SENIOR VICE 
PRESIDENT FOR ADVOCACY AND POLICY, NATIONAL ASSOCIATION FOR THE 
                 ADVANCEMENT OF COLORED PEOPLE

    Mr. Shelton. Good morning, Chairwoman Maloney, Ranking 
Member Jordan, esteemed members of this committee. I'd like to 
thank you for asking me here today to discuss the topic that is 
crucial to the NAACP, and all of the individuals, families, 
neighborhoods, and communities we serve and represent, as well 
as our Nation as a whole: The continued presence and, indeed, 
the growth of white nationalism and white supremacy in America.
    We are to be--you are to be commended as leaders in your 
communities for promoting tolerance as was reflected in the 
nearly unanimous passage of one of the first acts of the 116th 
Congress, that is, of H. Res. 41, the resolution rejecting 
white nationalism and white supremacy in America.
    In the preamble to our association's constitution, the 
NAACP is sworn to continue to fight for justice until all, 
without regard of race, gender, creed, or religion, enjoy equal 
status. In short, we were founded as an antithesis of the white 
nationalism and white supremacy, and members or followers of 
the NAACP have continued, to this day, to uphold this ideal of 
equal opportunity and equal protection under law.
    It is not an easy path, however, and we continue to face 
challenges. Throughout history, white supremacy has been 
espoused to the detriment of many others due to their race, 
ethnicity, religion, point of national origin, or family 
background.
    As we all know, white supremacy can lead to atrocities such 
as genocide of Native Americans, the Holocaust, slavery, 
lynching, segregation, and a whole host of other horrors. We 
have, however, successfully fought back against some of these 
terrorists through laws like the Hate Crime Statistics Act and 
the Matthew Shepard, James Byrd Hate Crimes Prevention Act.
    Yet, we can and should do more. We must be ever vigilant. 
To begin, the NAACP strongly supports the bipartisan and 
bicameral Khalid Jabara and Heather Heyer National Opposition 
to Hate, Assault, and Threats to Equality Act, or the No Hate 
Act. This important legislation addresses the problems of 
underreporting to the FBI under the Hate Crime Statistics Act 
and allows courts to require the defendant to participate in 
educational programs or community services as a condition of 
supervised release.
    We must also address the problems associated with the 
online hate. Yet, I am quick to note a word of caution: The 
line between impermissible hate speech and one's First 
Amendment right of free speech is extremely narrow. The NAACP 
strongly supports and endorses the Domestic Terrorism Act.
    This similar legislation would enhance the Federal 
Government's efforts to prevent domestic terrorism by requiring 
Federal law enforcement agencies to regularly assess the threat 
posed by white supremacists and other violent domestic 
extremists, and take concrete steps to address this threat.
    We also strongly support enactment of the Emmett Till 
Antilynching Act legislation, which would make lynching a 
Federal hate crime, therefore eligible for additional tools 
needed in local communities and resources used to investigate 
and prosecute these heinous crimes.
    The NAACP endorses and supports legislation which was just 
introduced yesterday in the other body, that is, the Senate, 
the Justice for Victims of Hate Crimes Act, which will make it 
easier to prosecute hate crimes.
    Finally, and I cannot emphasize this strongly enough, we 
need to boost the education of our youth on the horrors of the 
genocide of Native Americans, the Holocaust, slavery, lynching, 
and all other acts of terror that white nationalists and white 
supremacy have brought upon us as a Nation and as a world.
    To fail to do so would be a crime, in and of itself, and an 
insult to the millions of our ancestors who have struggled and 
died to address these concerns. We need to remember and learn 
from the past so it is never, ever repeated.
    I said at the beginning of my testimony that the leaders of 
these communities, we commend you for the great work you did in 
rejecting white nationalism and white supremacy. Yet, we do 
still have political leaders who talk racially thoughtless 
questions like, ``White nationalists, white supremacists, 
Western civilization, how did that language become offensive?''
    Or they make odious statements such as, ``You also had 
people that were very fine people on both sides'' of the August 
2017 Charlottesville, Virginia demonstration that resulted in a 
violent confrontation between a group of Neo-Nazis against 
social justice advocates supporting diversity throughout our 
Nation and equal opportunity and equal protection for all 
Americans. This was the confrontation which led to the death of 
Heather Heyer.
    There is an obvious need for more research, understanding, 
reflection, and education. So, we thank you, again, for 
inviting me here today and for your interest in the views of 
the NAACP. I look forward and ready to answer any questions as 
we move to that part of this presentation. Thank you.
    Chairwoman Maloney. Thank you.
    Ambassador Dore Gold.

STATEMENT OF DORE GOLD, PRESIDENT, JERUSALEM CENTER FOR PUBLIC 
                            AFFAIRS

    Mr. Gold. Madam Chairwoman, Ranking Member Jordan, thank 
you for your invitation. I have been--I'm an Israeli citizen 
and an Israeli diplomat, and I happen to have been in 
Washington yesterday because of the ceremonies that occurred in 
the White House, where the United States issued a new peace 
plan for the Middle East, but I was very glad to join you here, 
and express some of my conclusions on this issue.
    This hearing was conceived to deal with three interrelated 
issues: First, commemorating the 75th anniversary of the 
liberation of Auschwitz at the end of World War II; second, we 
are using this moment to consider the rise of anti-Semitism in 
recent years, especially in states that fought the evil of 
Nazism, which is why it is so particularly disturbing. These 
are states that are the center of our current civilization. So, 
when anti-Semitism is rising in France, in Germany, in Britain, 
and in the United States, we have to pay attention, and perhaps 
in ways that we wouldn't otherwise.
    Finally, we consider what the legacy of Auschwitz requires 
from us today. I have served in multiple diplomatic positions 
for the state of Israel, including as its Ambassador to the 
United Nations, as director general of the Ministry of Foreign 
Affairs. Wherever I was posted, the Holocaust was a national 
disaster that we, the representatives of the reborn Jewish 
state, could never forget.
    During my tenure as director general, when coming for a 
dialog with the German Government, we took time off to visit 
Wannsee, on the outskirts of Berlin, and the villa where senior 
SS officers, like the infamous Reinhard Heydrich, convened a 
meeting in January 1942 to plan the final solution of the Jews 
of Europe. It was here that a plan was conceived for the Jews 
of German-occupied Europe that included the building of 
Auschwitz.
    As in many historical sites that were preserved, Wannsee 
had a guest book, which I was asked to sign. Well, what do you 
write in such a book at such a location? Have a nice day? With 
the burden of our history on my shoulders, I wrote a very terse 
comment. I wrote, quote, ``We will never allow anyone to do 
this to us again,'' unquote.
    I remember that in the course of World War II, 6 million 
Jews were exterminated by the Germans, and at Auschwitz alone 
960,000 Jews were killed. Auschwitz was located in the eastern 
part of the Nazi empire. That meant it was vulnerable, first 
and foremost, to the Red Army along the eastern front.
    The German determination to complete their mission of 
extermination despite the advances of the Russians caused the 
Germans to transfer the inmates from Auschwitz to other 
concentration camps further west and within the borders of the 
German state. That is what led Jews from Auschwitz to Bergen-
Belsen on forced marches during the frigid winters of northern 
Europe.
    Anne Frank and her sister Margo were moved in this way from 
Auschwitz to Bergen-Belsen where they both died. On a personal 
note, my mother-in-law, Dina Sherman, and her sister Esther, 
were relocated from Auschwitz to Bergen-Belsen with thousands 
of others.
    Five days after the British Army liberated Bergen-Belsen, a 
BBC reporter named Richard Dimbleby entered the camp and 
recorded the Jewish prisoners rising up with their frail bodies 
on a Friday night and breaking into the Hebrew song 
``Hatikvah,'' which means ``the hope.''
    They were reminding the world that their hope was 2,000 
years old and dated back to when the Jews lived as a free 
people in their own land. It was time for them to go home. 
That's what they were saying. Hatikvah became the national 
anthem of the state of Israel.
    Modern Israel is committed to fighting anti-Semitism, and 
defending Jews worldwide. Only today, anti-Semitism is not just 
active in Venezuela or in remote areas of Yemen. It is being 
revived in the heart of Western civilization, in France, the 
United Kingdom, and in Germany, as well as in the U.S. and 
Canada.
    This new wave of anti-Semitism can be fought with legal 
tools and with education. Anti-Semitic incitement can have 
lethal consequences. So, we ask our allies in the West to stand 
firm and help us vanquish hate speech, and vanquish this 
phenomenon before it gains further strength.
    And I want to close with an observation as a former 
diplomat. We have a very important tool to fight this. In 1948 
the international community signed the Genocide Convention, and 
the Genocide Convention contains a specific clause outlawing 
incitement to genocide.
    When the Iranian leadership spoke about wiping Israel off 
the map, we convened a group of international legal scholars to 
look into whether they had crossed the line of incitement to 
genocide.
    When I was in Rwanda with the Ministry of Foreign Affairs, 
and met with their minister of foreign affairs, anyone who 
reads about the Rwandan genocide will find that incitement to 
genocide was a key component. It was a warning signal that 
something is about to happen.
    So, if we sharpen these tools and if we actually use them 
and not just leave them in textbooks at law schools, I believe 
we can take active measures to narrow, to constrain the use of 
hate speech, and we can also combat directly the phenomenon, 
the spreading of anti-Semitism and other forms of hatred that 
are occurring today. Thank you.
    Chairwoman Maloney. Thank you very much.
    Dr. Edna Friedberg.

   STATEMENT OF DR. EDNA FRIEDBERG, HISTORIAN, UNITED STATES 
                   HOLOCAUST MEMORIAL MUSEUM

    Ms. Friedberg. Good morning. Thank you, Madam Chair, for 
your consistent leadership in service of Holocaust memory and 
education and for having me here today.
    When I became a Holocaust historian more than 20 years ago, 
I thought I was dealing only with the past. I was so naive. 
Over the course of my career, I have seen the voracity of the 
Holocaust questioned. I have seen the very language and symbols 
of the Nazis resurrected as weapons in new racist attacks. And 
as other witnesses have testified today, we are experiencing a 
resurgence in anti-Semitic violence and speech, and racists of 
all types feel emboldened.
    You don't need to be Jewish to be seriously alarmed by this 
dangerous trend. As a historian, I can testify unequivocally 
that whenever anti-Semitism is expressed publicly and without 
shame, an entire society is at risk. It's an indicator of poor 
health of a society.
    The Holocaust did not begin with gas chambers. It started 
with words, with racist cartoons, with children's books that 
taught girls and boys to be afraid of their Jewish neighbors, 
with posters that portrayed Jewish men as leering rapists, 
threatening pure blonde women and girls.
    Hitler was obsessed with race long before becoming 
chancellor of Germany. His speeches and writing spread his 
belief that the world was engaged in an endless racial 
struggle. When the Nazis came to power, these beliefs became 
government ideology, and were spread in posters, radio, movies, 
classrooms, and newspapers. They also served as a basis for a 
campaign to reorder German society, first through the exclusion 
of Jews from public life, then as well for the systematic 
murder of Germans with mental and physical disabilities.
    And let's remember that the Nazis did not seize power 
through a military coup or revolution. They rose as part of a 
power-sharing agreement in a fledgling democracy. In order to 
make Jewish persecution palatable, Nazi propagandists branded 
Jews as a biological threat. Government-sponsored racist 
propaganda denounced Jews as aliens, as parasites, and said 
that they were responsible for Germany's cultural, political, 
and economic degeneration.
    These words had an enormous effect, creating an environment 
in which persecution and violence were not only acceptable, but 
an imperative. Nazi propagandists built on existing stereotypes 
to directly link Jews to the spread of disease like vermin. As 
part of their racial campaign to, quote, cleanse society, Nazi 
leaders implemented so-called racial hygiene policies to 
protect non-Jews.
    For example, in occupied Poland, Nazi Germany reinforced 
its policy of confining Jews to urban prison zones known as 
ghettos, by portraying Jews as a health threat requiring 
quarantine. This approach was a self-fulfilling prophesy. By 
depriving the hundreds of thousands of human beings imprisoned 
there in these ghettos of food, water, sanitation, and medical 
care, the Nazis actually created a diseased population. German 
propaganda films that were shown to schoolchildren 
characterized the sinister Jew as a carrier of lice and typhus, 
like rats.
    Ms. Friedberg. On a side note, even seemingly admiring or 
positive stereotypes about Jews, that they are smarter than 
other people, good with money, well connected or powerful, 
these too draw on much older anti-Semitic conspiracy theories 
about global Jewish domination. The Nazis invoked links between 
Jews and communism to allege that Jews were warmongers. Similar 
accusations are currently leveled regularly against prominent 
Jews around the world. In our own country during the Nazi era, 
celebrated Americans, like Henry Ford and Charles Lindbergh, 
spread anti-Jewish propaganda and characterized American Jews 
as an enemy element that threatened the United States' 
interests.
    In August 2017, self-proclaimed white nationalists carried 
torches through Charlottesville, Virginia, to invoke the racist 
legacy of Nazi Germany. Fire is more than a dramatic flare. In 
a charged context, it signals violence and destruction. The 
Nazi regime began by carrying torches at parades and rallies 
and, by 1938, burning buildings and Torah scrolls. It 
eventually burnt the bodies of millions of human beings. The 
very word ``holocaust'' derives from the Greek, meaning 
sacrifice by fire.
    Marching with torches in the American South has an 
additional, more specific resonance: nights of firebombs and 
lynchings. Unlike in Nazi Germany, our country today has checks 
and balances to prevent racist violence from dominating our 
streets or laws. The torches carried during a nighttime march 
in an American university town two years ago deliberately 
echoed the smoke of an earlier racist and murderous era.
    In closing, hate speech and violence against Jews are 
canaries in the coal mine for the health of democracy and civil 
society. A government that does not confront them does so at 
its own peril.
    My teenage nephew, bored and exasperated, once asked me: 
Why can't Jews ever stop talking about the Holocaust? And 
speaking as the daughter of a survivor, I had to take a deep 
breath before I answered him. But his question was really: Why 
do we study the Holocaust? Why? Because it is the best 
documented crime in human history, one driven by genocidal 
racism. Let's heed its warning signs.
    Thank you.
    Chairwoman Maloney. I want to thank all of the witnesses 
today for their very moving and important testimony, and I want 
to thank all of you for appearing here today.
    I would like to begin my questions with Mr. Shaffir. We are 
very honored to have you here today, and I was deeply moved by 
your testimony. You and your family have suffered an incredible 
loss and showed incredible courage, and I know that testifying 
today must be very difficult for you.
    So, I want to ask you: Given how difficult it is for you to 
relive this pain, why did you agree to come here and to tell 
your story? Why is it so important to you that other people 
hear this story?
    Mr. Shaffir. We need to share this historical tragedy. It's 
impossible for people to remember, and some of them probably 
will forget, what happened, how many millions of people, 
innocent people were killed because they were Jews or any other 
faith.
    If I don't speak out, if I don't share my information, I 
will only have myself to be blamed at because I did not share 
my information. So, that's one of the reasons why I'm here and 
trying to share my information as best as I can.
    Chairwoman Maloney. Is there a single message that you 
would hope to convey to the American public, many of whom are 
watching on television, many of whom are members of the younger 
generation? What would that key message be you would like to 
convey to them?
    Mr. Shaffir. The message I would like to convey is, really, 
I can summarize that in two words, two powerful words: Speak 
out. It's very important that we do not remain silent.
    Chairwoman Maloney. Monday of this week, we passed 
overwhelmingly bipartisan legislation to provide additional 
funding to give students the opportunity to learn from people 
like you and to hear from survivors. This bill would also 
expand the educational program of The Holocaust Museum. I 
understand that you work at The Holocaust Museum. Is that 
correct?
    Mr. Shaffir. Yes, I do. I'm a docent. I've been a docent 
for 10 years.
    Chairwoman Maloney. OK. Great.
    Mr. Shaffir. I do take tours--or give tours to law 
enforcement agencies, trying to teach what happened and to make 
sure things like this never happen again.
    Chairwoman Maloney. And could you tell us why these 
education programs at the museum are so important to help 
educate future generations?
    Mr. Shaffir. In the 1930's and 1940's, we had one common 
enemy: It was Hitler. Today, we have a new enemy. It's time. 
Unfortunately, all of us are getting older. Many of us are 
dying out. I'm one of the younger ones, and I'm 83 years old. I 
don't know how long I can live. So, if we don't tell this story 
and we don't do something about that, obviously we need to 
educate young people right now while I still have my voice. 
Once I'm gone, I need the young generation to be our voices.
    Chairwoman Maloney. Why do you think it's so important that 
our Nation remember the lessons of the Holocaust? Why do you 
think it's so important that we don't forget about it----
    Mr. Shaffir. Yes.
    Chairwoman Maloney.--that it's not manufactured or ignored 
or altered?
    Mr. Shaffir. If you don't remember the past, our future 
will look very blight. Unfortunately, I wear a pin. It's four 
letters on it, four Hebrew letters, which means--it's Zachor. 
Zachor has two meanings: One, remember; and, one, don't forget.
    The first Zachor, remember: Remember the atrocities that 
the Nazis have committed against innocent people. And Zachor, 
don't forget: Don't forget all these who perished. So, we need 
to remember all these things and pass on to our children, our 
grandchildren so they would not forget.
    Chairwoman Maloney. Well, I want to thank you for your very 
moving testimony. You know better than any of us what can 
happen when hate is allowed to flourish. As our committee 
continues to examine the threat of white supremacy in the weeks 
and months ahead with the other hearings that we have 
scheduled, we're fortunate to have your perspective, and we are 
very grateful for your time and for your testimony.
    Mr. Shaffir. Thank you.
    Chairwoman Maloney. Thank you.
    I will now recognize Mr. Hice, Jody Hice, for his 
questions.
    Mr. Hice. Thank you, Madam Chair. And thank you to each of 
our witnesses for being here today.
    Ambassador Gold, let me begin with you. During this past 
October's democratic debate, Presidential candidate Bernie 
Sanders stated that, in his opinion, the U.S. should, quote, 
leverage military aid to Israel in order to manufacture changes 
to Israeli domestic policy, specifically as it relates to the--
to Gaza. He was saying we need to withhold funds for that.
    Do you believe that kind of action would be helpful?
    Mr. Gold. It's not my interest to----
    Chairwoman Maloney. Turn on your mic, please.
    Mr. Gold. It's not my interest to jump into American 
domestic politics, but at the same time, one has to understand 
what is in Gaza. What's in Gaza today are people who are 
miserable, who have been taken over by one of the most hateful 
organizations on Earth; it's called Hamas. It has allies like 
Islamic jihad and other Salafist groups. And putting leverage 
on Israel is mixing up the firemen with the fire and will not 
produce a more stable outcome.
    I want to say that I am very optimistic about the Middle 
East as a whole, and there are Arab states that see eye to eye 
with Israel about the need to extinguish hatred, the need to 
work together to build a better region. We are seeing evidence 
for the first time of senior Arab diplomats who will go to 
Poland and visit Auschwitz. That's something that didn't happen 
before.
    Mr. Hice. I totally agree.
    Mr. Gold. Let's encourage that and not sort of hair-brained 
schemes to put pressure on Israel by denying it military 
assistance because of a situation that it didn't create in the 
Gaza Strip.
    Mr. Hice. I agree with you, and I think the bottom line of 
your answer is no, that it would not be helpful to withhold 
military aid to Israel.
    Mr. Gold. Thank you for putting it succinctly, yes.
    Mr. Hice. Madam Chair, I would ask unanimous request that 
the article about those comments be submitted to the record, 
please.
    Chairwoman Maloney. So, granted.
    Mr. Hice. Thank you very much.
    By the way, really, I believe this is--it's a quid pro quo: 
We'll provide this money provided Israel makes some changes. 
And it's interesting to me who that came from is really what 
the Democrat--many of my colleagues have been claiming is an 
impeachable offense in itself.
    Mr. Greenblatt, let me go to you. This past week--this past 
weekend, a member of this very committee tweeted an 
unsubstantiated claim that Israelis actually kidnapped and 
killed a seven-year-old Palestinian boy. You confronted this 
claim on Twitter as, quote, a vicious lie. You also called it 
blood libel. And, of course, the incident was proven false. The 
words themselves, I suppose, are not necessarily anti-Semitic 
but, indirectly, they certainly are. They were unsubstantiated. 
They were reckless. They were troubling. They were proven 
false.
    Do you believe these comments are at all helpful?
    Mr. Greenblatt. Well, Mr. Congressman, thank you for the 
question. So, the blood libel, the accusation that Jews are 
responsible for the murder of children, gentile children, non-
Jewish children, Christian or Muslim, has followed Jews for 
centuries across Europe and the Middle East. It's been used to 
demonize them. It's been used as the basis for persecution, for 
pogroms, for slaughter. Really going back almost a thousand 
years to England and the medieval times.
    So, as the head of the ADL, an organization that's been 
fighting anti-Semitism and all forms of hate for over a hundred 
years, I will call out accusations like the blood libel 
whenever and wherever they happen. I think it's important to 
note that the use of the blood libel in these anti-Semitic 
slurs, we shouldn't use them as political or partisan weapons.
    I will call it out, whoever says it, whenever it happens, 
on the basis of the fact that hate is unacceptable, period. At 
a time when anti-Semitic incidents are on the rise, when I 
spent a fair amount of energy paying respects to the victims of 
hate crimes in Pittsburgh, in San Diego, in New Jersey, in New 
York, we shouldn't tolerate when anyone from either side 
engages in that kind of behavior.
    Mr. Hice. Thank you.
    And, Madam Chair, again, I would ask to be added to the 
record, unanimous consent, Mr. Greenblatt's reply to this 
accusation and an article that explains it. I thank you.
    Chairwoman Maloney. So, granted.
    Mr. Hice. I yield.
    Chairwoman Maloney. Tom Malinowski, as a member of our 
delegation, without objection, the gentleman from New Jersey, 
will be added to the panel. Thank you.
    Now I recognize the gentlewoman from the District of 
Columbia, Ms. Eleanor Holmes Norton, for questions.
    Ms. Norton. Thank you, Madam Chair. I want to thank you 
especially for holding this hearing today on the 75th 
anniversary of the liberation of Auschwitz. I particularly 
thank the witnesses who have agreed to appear today.
    I want to say to Mr. Shelton that I think it was perfectly 
appropriate to have a high representative of the NAACP at--on 
this panel, first, to indicate that hate appears to be of a 
piece. I would hypothesize that if you find someone who hates 
Jews, he will also find that he hates African Americans.
    If we keep that web together, we perhaps can understand the 
latest FBI statistics: The most frequently targeted group for 
hate offenses is African Americans. Forty-seven percent of hate 
offenses are motivated by race or ethnicity or ancestry. That 
may be because they're looking at people they can identify by 
those characteristics.
    Perhaps in recent times, the most notorious of the hate 
crimes was the Dylann Roof invasion of a church, no less, at a 
storied African American church in South Carolina, the oldest 
church in the South, during Bible study. I don't know if he 
chose the church and the time, but the symbolism cannot be lost 
on any of us.
    I am concerned with the increase in anti-Semitism and want 
to know: Where in the world does this come from? Why wasn't 
there an increase 10 years ago?
    Mr. Shelton, do you see a relationship between an increase 
in anti-Semitic and anti-Semitism, anti-Semitic attacks and the 
increase I just spoke of, the increase in hate offenses 
motivated by race or ethnicity?
    Mr. Shelton. Absolutely. The ideology shared, as we look at 
those who committed these horrific crimes, is so very similar. 
As a matter of fact, as we listened to those who made 
presentations about various experiences of the Jewish 
community, I sat there checking off boxes of the same 
strategies so often being utilized against African Americans. 
Whether they're vilifying African American men, somehow 
deciding that they're all going to be racists and violent 
rapists as well, we've heard the same stories told about what 
happened very well as we think about having the Jewish men too 
in the ghettos and certain of the language that's used very 
similarly.
    So, what we're seeing is an increase in the same 
organizations that very well hate African Americans and hate 
Jewish Americans and anyone that's not White Anglo Saxon, as a 
matter of fact, in our society, carrying forward the ideologies 
of the Third Reich.
    So, the similarities are very clearly there as we look at 
the--even the hate crimes data that's shared with us by the 
Justice Department, making sure we have categories to cover all 
these areas, and seeing very well that the increases are 
consistent, regardless of the group you're talking about. And 
certainly the experiences of the African American community are 
extremely similar to those of the Jewish community.
    Ms. Norton. Mr. Greenblatt, there has been a long, special 
relationship between American Jews and African Americans. In 
fact, the only Whites who have consistently been vocal and 
active are in the civil rights movement, and with respect to 
matters having nothing to do with themselves but on race alone, 
have been American Jews. That special relationship is long, 
even to the founding, I think, Mr. Shelton, of the NAACP 
itself, where among the founders were American Jews.
    Could I ask you, in light of your own work, what has the 
Anti-Defamation League found about threats and increases--
threats and violence against African Americans, the figure I 
just spoke of, and of the relationship, and what do you think 
can be done about the rise of anti-Semitism and racist attacks 
going on at the same time?
    Mr. Greenblatt. Congresswoman, thank you for the question. 
I think, first and foremost, I would reinforce what you said: 
The relationship between Jewish Americans and African Americans 
is long and deep. There is a shared history of suffering. There 
is a shared history of Diaspora, if you will. And as the 
Holocaust was a pivotal moment in the modern Jewish experience, 
so as enslavement was a pivotal moment for African Americans. 
And I think understanding our shared suffering has been 
critical to the success we've had together.
    I am proud of the fact that Ben Epstein, who is the head of 
the ADL in the fifties and sixties, stood and marched with Dr. 
King in Selma. And I'm proud of the fact that we filed an 
amicus brief in Brown v. Board of Education and joined the 
NAACP in doing that. And I'm proud of the fact that we work 
today on so many issues together, because make no mistake, from 
Charleston, to Charlottesville, to Pittsburgh, to Poway, there 
is a throughline: White supremacy is a violent threat against 
all marginalized groups. And the people, as my colleague Hilary 
said, who hate Jews also hate African Americans, simply because 
they and we are different from their majoritarian view.
    Now, there's a lot more work to be done. I would commend 
Congresswoman Lawrence and Congresswoman Wasserman Schultz for 
helping to start the bipartisan caucus on Black-Jewish 
relations.
    I had the privilege of addressing a group of Black and 
Jewish legislators two years ago with my friend, Derrick 
Johnson, of the NAACP. There is so much more work to do.
    I mean, at ADL, we were founded after a Jewish man was 
lynched in 1913. He was lynched after having been falsely 
accused of a crime, essentially a blood libel, of murdering a 
Christian girl. But what I would note is that when that man was 
lynched, Leo Frank, the founders of ADL, they wrote a--they 
wrote a charter for this new organization, and in it are the 
words we still use today as our mission statement. What they 
wrote was that this organization would, quote, stop the 
defamation of the Jewish people and secure justice and fair 
treatment to all.
    Chairwoman Maloney. The gentleman's time has expired. Can 
you wrap up?
    Mr. Greenblatt. I'll just say what they realized was that 
you can't defend American Jews unless you defend all Americans, 
and we're deeply committed to that mission a hundred years 
later today.
    Chairwoman Maloney. I recognize the gentlewoman from North 
Carolina, Dr. Virginia Foxx, for her questions, and she has 
additional time as additional time was taken on our side. I 
yield to Virginia.
    Ms. Foxx. Thank you very much, Madam Chairman. And I want 
to thank our witnesses for being here today.
    I don't think it's possible that we could overstate the 
tragedy of the Holocaust. I just don't think it's possible that 
we can do that. Any kind of hate is unacceptable. Any kind of 
discrimination is unacceptable. And I believe that that's how 
the people on my side of the aisle feel, and we feel it every 
day and express it every day. So, I want to say having hearings 
and reminding people of what has happened is appropriate for us 
to do.
    Mr. Greenblatt, on December 11, 2019, President Trump 
signed an executive order to combat anti-Semitism on college 
campus. Does the ADL support this order?
    Mr. Greenblatt. Congresswoman, thank you for the question. 
So, the executive order that the President signed into law was 
based on a bipartisan piece of legislation, the Anti-Semitism 
Awareness Act, that we indeed did support. That, I should note, 
the Anti-Semitism Awareness Act, was based on rulings that came 
out of the Education Department under Presidents Bush and 
President Obama. And, indeed, I think this executive order, it 
affirms the definition of the Holocaust--the definition of 
anti-Semitism, excuse me, specifically developed by academics 
from a number of different countries, so we do support it.
    Ms. Foxx. I just need a simple yes or no.
    Mr. Greenblatt. Yes, we support it.
    Ms. Foxx. Thank you. And thank you very much for that.
    Ambassador Gold, the Simon Wiesenthal Center produced a top 
ten list of worst instances of anti-Semitism and anti-Israel 
incidents. Unfortunately, it seems anti-Semitism is still alive 
and well.
    In December, we've all spoken about or mentioned the 
numerous attacks against Jews during the Hanukkah season. Do 
you believe and know that the number of anti-Semitic attacks is 
on the rise, and do you believe that social media platforms 
have provided greater access for people to spread anti-
Semitism?
    Mr. Gold. I am completely aware that the number of anti-
Semitic incidents around the world is on the rise. I am also 
aware that as much as social media platforms can be great 
vehicles for education and mutual awareness, they are also 
being used by some of the most vile organizations in the world 
to spread hatred. And the tension between free speech and 
incitement to killing is a real tension that lawyers and 
scholars have to work out.
    Israel is a democratic society. The United States is a 
democratic society, and we cherish our democracy and free 
speech, but we cannot provide a vehicle that allows the spread 
of hatred.
    At my center that I now run since I left government, we 
have been examining how the Internet is used by radical Islamic 
organizations, particularly in Canada, and they're spreading 
anti-Semitism. We have found a way in the--our representative 
in Canada has found a way of presenting this information to the 
Canadian authorities.
    So, you have to use--you have to use your legal system to 
combat this, and you have to, you know, shine your flashlight 
on where this is coming from.
    Ms. Foxx. I have another question for you. Are White neo-
Nazis the only ones perpetrating anti-Semitic attacks? Where 
else do you see hotbeds of anti-Semitism? You've just mentioned 
Canada. And is it fair to say that anti-Semitism is prevalent 
across all races and genders?
    Mr. Gold. I believe it's evident among all races and all 
genders and has to be fought and combatted, regardless of its 
point of origin.
    Ms. Foxx. I'd asked about do you see hotbeds? You mentioned 
Canada. Are there other hotbeds of anti-Semitism that your 
group has recognized and that we should be aware of?
    Mr. Gold. We've done a lot of work on the United Kingdom, 
on Britain, and there are real serious problems of anti-
Semitism, and we've seen it enter into parliamentary life in 
U.K., much to the horror of all of us who always look to 
Britain as a beacon of democracy. So, there's a lot of work to 
be done worldwide.
    Ms. Foxx. Well, let me assure you that I come from an area 
of North Carolina in this country where we have great reverence 
for the people of Israel and for all Jews. As you know, most 
Christians feel that the Jews are God's chosen people and that 
it is our place to support Israel.
    So, do you have ideas, to followup on what you just said, 
on why anti-Semitism knows no racial, ethnic, gender, 
geographic boundaries when we have historically--again, those 
of us who are very strong Christians--felt so positively toward 
Israel and toward the Jewish people?
    Mr. Gold. Well, that is not the kind of question I could 
answer on one leg, but it does indicate that we've got work to 
do. We've got work to research. We've got to find where it's 
coming from, and then we have to make recommendations of how it 
can be dealt with. But we can't just sit back and let it 
happen. It's getting much worse. It's not good for the Jewish 
people worldwide, and it's also terrible for the countries 
where it's occurring.
    You know, I'll just tell you this: I was heavily involved 
in Israel's efforts in 2016 to restore diplomatic ties and 
political activity across the continent of Africa. I remember 
sitting with the foreign minister of Rwanda, and she told me: 
Dore, you've got one hard-to crack. I thought she was going to 
talk about, I don't know, Libya. She was talking about South 
Africa, which is led by a political party which has been 
fathering the whole BDS movement, which has now spread 
worldwide.
    I nonetheless persisted in trying to reach out to South 
Africa, and will continue to do so.
    Ms. Foxx. Thank you, Madam Chairman. You've been very 
tolerant, and I appreciate it. I yield back.
    Chairwoman Maloney. Thank you.
    I now recognize Raja Krishnamoorthi.
    Mr. Krishnamoorthi. Thank you, Madam Chair. Thank you.
    I want to thank all of our witnesses for appearing here 
today, and especially Mr. Shaffir. Thank you for your very 
moving personal story.
    I would like to start with Mr. Orsini and ask a few 
questions about what happened on October 27, 2018, at the Tree 
of Life synagogue. That day, as you mentioned, a man armed with 
an assault rifle and three handguns stormed the Tree of Life 
congregation, shouting anti-Semitic slurs as he slaughtered 11 
worshippers. As you know, that was the deadliest assault 
against the Jewish community in American history.
    Mr. Orsini, at the time of the attack, you were working as 
the director of community security for the Jewish Federation of 
Pittsburgh. Isn't that right?
    Mr. Orsini. Yes, sir.
    Mr. Krishnamoorthi. And could you just spend a minute 
talking about the impact of this tragedy on the community and 
the congregation since the attack?
    Mr. Orsini. That attack not only affected the Squirrel Hill 
section of Pittsburgh or Jews in Pittsburgh, but the entire 
city. Imagine, we live in a day and age now where we have to 
think about protection in a house of worship, when you go 
there, as the most vulnerable as you can be and you get gunned 
down.
    Since that shooting, the Tree of Life, Dor Hadash, and New 
Life, the three congregations that prayed in that synagogue, 
are still affected. The entire Jewish community has been 
affected. The effects of that shooting are long lasting, and 
they're not going to go away anytime soon.
    It's important in our community in Pittsburgh to make our 
folks feel safe so they can get back in to worship, no matter 
what denomination it is.
    Mr. Krishnamoorthi. Children witnessed that attack, right?
    Mr. Orsini. Pardon me?
    Mr. Krishnamoorthi. Children were present on that day and 
witnessed the attack?
    Mr. Orsini. To my knowledge, there were no children in 
there.
    Mr. Krishnamoorthi. OK.
    Mr. Orsini. But there were enough people in there to 
witness that horrific attack, yes.
    Mr. Krishnamoorthi. What has been the impact on children 
generally since that attack?
    Mr. Orsini. What was very important to us in Pittsburgh at 
the time after that attack was to work a very quick resolution. 
What I mean by that is it was important for us to get our kids 
back in school, get our Jewish facilities, our day schools, our 
preschools, and work with our community to get them back in 
there.
    It is a long-lasting effect. I went from school to school, 
preschool to preschool, to talk to parents about how terrified 
their children were, how terrified children, students, and, 
quite honestly, adults were just to walk to synagogue. We had 
to work hard, as we do every day, to make them resilient and 
strong. We continue to do that, but the Jewish community 
unfortunately is a targeted community, and----
    Mr. Krishnamoorthi. Let me----
    Mr. Orsini. Go ahead.
    Mr. Krishnamoorthi. Let me jump in. I think one of the 
things that probably folks everywhere understand is that, 
regardless of whether you are in Pittsburgh or not, I think 
folks who worship at synagogues feared, you know, going to 
their synagogues for a long time after this particular 
incident.
    I want to switch gears a little bit, and I'd like to hear 
your views on, what do you think the role of Holocaust 
education plays in hate crime prevention generally?
    Mr. Orsini. I think it's paramount. The city of Pittsburgh 
is one of the few cities, and it may be the only city in the 
country right now that requires its police department an all 
cadets training to go to The Holocaust Center and spend time 
there prior to going out on the street. It's a model based 
after the national Holocaust Museum. The only other group that 
I know is FBI agents that go through there. It's so important 
for Holocaust education to continue, and it needs to start in 
middle school up.
    Mr. Krishnamoorthi. How can the Federal Government best 
support either this type of educational awareness or hate crime 
prevention generally at the local level?
    Mr. Orsini. I think at the local level, there is several 
things. Quite honestly, it takes money, it takes human capital, 
and it takes time. Holocaust education, in my view, is 
important to be mandated in public schools, in education 
platforms. We have to never forget. Teach our community what 
happened there and what rises out of hate. I think for our 
community and the Jewish community, it's ever so important.
    I have worked civil rights in the FBI for many years. I was 
a civil rights coordinator. I've worked hate crimes for 
numerous years. Hate is generational. We need to be on the 
ground floor of children, educating them on hate, what happened 
in the Holocaust, what hate does.
    Mr. Krishnamoorthi. I think I just want to finish. I'm out 
of time, but I want to underscore that last point, which is 
that I think that to end hate, because it is generational, you 
have to start with the kids, and you have to teach them that 
anti-Semitism, Islamophobia, hatred of all kinds is not right, 
and I think that we at the Federal level have to support that.
    Thank you so much.
    Mr. Orsini. Thank you, sir.
    Chairwoman Maloney. Thank you so much.
    I now recognize the gentleman from Kentucky, Mr. James 
Comer, for questions.
    Mr. Comer. Thank you, Madam Chairman. And I thank all the 
witnesses for being here today.
    Mr. Shaffir, I really appreciate your testimony. And every 
time we have a tour group from Kentucky come, we always 
recommend Holocaust Museum. I think of all the great museums in 
Washington, that's the most special museum, most moving, most 
educational museum that makes such a difference, and we've not 
had anyone say anything but how much they were touched by that 
museum.
    Ambassador Gold, I'd like to focus my questions on Israeli 
policy. Can you explain how dangerous Iran is to Israel and why 
the Golan Heights are so necessary to Israel's defense?
    Mr. Gold. Iran is a country----
    Mr. Comer. Hit the microphone.
    Mr. Gold. Iran is a country which is under a theocratic 
regime which has stated its determination to destroy the state 
of Israel. In my institute--but I'm--the government has done 
this as well--we have collected statements made by the Iranian 
leadership, right across the board--military leadership, 
civilian leadership--which calls for wiping Israel off the map.
    Now, the question is: Is this just rhetoric to show off or 
is there something behind it? So, I'll give you a very specific 
example. In the Iranian Armed Forces, there is a missile called 
the Shahab-3, which can strike Israel from Iranian territory. 
Up until recently--it's an 800-mile-range missile.
    Up until recently, the Iranians have only put conventional 
warheads in this missile, but now they are aiming to replace 
the conventional warheads, according to documents that Israel 
has, with a future nuclear warhead. Now, those missiles are 
paraded once a year in Tehran. And on the missile, as well as 
sometimes on the missile carrier, they write: Israel must be 
wiped off the map.
    So, what they do is they juxtapose their intentions with 
the military capability that they are building. And, by the 
way, it's not going to just stop with Israel. They'll go much 
further.
    So, our concern about Iran is, first and foremost, its 
nuclear weapons program, which we don't see having been altered 
by the JCPOA, but as a program that has probably gotten much 
worse.
    Mr. Comer. Well, that leads me to my next question. Let's 
focus on the President's American-Israeli policy. Have 
President Trump's actions such as withdrawing from the nuclear 
deal and eliminating international terrorist Soleimani made 
Israel safer, in your opinion?
    Mr. Gold. You're talking about the elimination of Qasem 
Soleimani?
    Mr. Comer. Uh-huh.
    Mr. Gold. The commander of the Quds Force?
    Mr. Comer. Right.
    Mr. Gold. One of the most gratifying international acts 
that I undertook before I returned to working for the 
Government of Israel, I had set up a dialog--I'm going to 
answer your question.
    Mr. Comer. OK.
    Mr. Gold. I set up a dialog with a Saudi general, and we 
have this dialog going on between his think tank in Jeddah and 
my think tank in Jerusalem. We used to meet in Rome. At one 
point, he said to me: Dore, how would you like to go to the 
U.S. Congress with me and lobby against the JCPOA? I said: You 
know, I agree with your intentions. I think it's a bad idea to 
lobby here on Capitol Hill out of the interests of Saudi Arabia 
and the interests of Israel. But we are think tanks, and 
there's nothing that prohibits us from going to a think tank in 
the United States and voicing our views.
    That's exactly what we did. We were invited by the Council 
on Foreign Relations here in Washington. He appeared and spoke 
in Arabic, I spoke in English, and the whole place was filled 
with American press.
    I'm telling you that because the threat to Israel is a 
threat to many of our neighbors in the region who are slowly 
but surely becoming our friends, and a new security 
architecture for the Middle East is now growing as a result of 
that perception of a shared security threat. And I think we 
have to build on that, but that has also given me optimism 
about many of my neighbors.
    We can become, not just friends, but allies, and hopefully 
that is something which we can work on with the Trump 
administration and with the American national security 
bureaucracy.
    Chairwoman Maloney. Thank you. The gentleman's time has 
expired.
    I now recognize the gentleman from Maryland, Mr. Jamie 
Raskin, for questions.
    Mr. Raskin. Thank you, Madam Chair.
    Mr. Greenblatt, you have spoken out against tweets or 
retweets by Democratic Members of Congress that circulate, 
intentionally or not, anti-Semitic tropes. And you have spoken 
out strongly against the TV commercial run by Donald Trump in 
the 2016 Presidential election that attacked Janet Yellen, 
George Soros, and Lloyd Blankfein as globalists and essentially 
enemies of the American people. And I think you've spoken out 
also against the outrageous moral equivalents manifested by 
President Trump stating that there were very fine people on 
both sides in the events that took place in Charlottesville.
    What is the importance of speaking out against anti-
Semitism wherever you're seeing it--wherever you see it and not 
permitting it to be a partisan weapon?
    Mr. Greenblatt. Thank you for the question, Congressman. 
Indeed, you're correct. So, ADL has spoken out consistently, 
and I would say clearly and cogently, in response to anti-
Semitism from both sides of the political aisle.
    We're living in a moment in time when extremists feel 
emboldened because, literally, the talking points of white 
supremacists or the talking points of other radicals are 
jumping off of their pages of their propaganda and into the 
talking points of elected officials. There's absolutely no 
excuse for it.
    So, we call it out whenever it happens and wherever it 
happens, in large part, because we want to make sure that 
elected officials and political candidates understand that they 
shouldn't use anti-Semitism or any form of hate for partisan 
gain.
    I wrote a letter to Congress last year specifically asking 
this body to prevent the tendency from using these kinds of 
tropes, again, to gain or to make political--score political 
points. I mean, I'll say, in closing and referencing a comment 
that Dr. Friedberg from the Holocaust Museum made, anti-
Semitism is not just a Jewish problem; it's everyone's problem, 
because it is typically historically a sign of the decay of 
democracy. It is a tool that populists use to press their own 
authoritarian agendas. And so we have got to have the moral 
courage and the intellectual honesty to call it out whenever it 
happens, no matter who says it.
    Mr. Raskin. And I thank you for that. I think that, in our 
country, anti-Semitism and racism both are the gateway to 
destruction of liberal democracy and equal rights for all of 
our people. So, I want to thank all of the members of the panel 
for underscoring the importance of historical memory as to all 
of the events that have taken place assaulting the rights of 
minorities.
    Going back to the dispossession and violence against Native 
Americans in our country and our experience with slavery, as 
well as all of the horrific events that took place in the last 
century with respect to anti-Semitism, I wanted to say this: 
I've been reading a book by Christopher Wylie called 
``Cambridge Analytica and the Plot to Break America,'' about 
Vladimir Putin's plan to inject racial, ethnic, religious, and 
partisan poison into our body politic in the 2016 election and 
beyond.
    I think it's a very scary book in some ways, but, 
ultimately, I find it to be an uplifting book, because we are 
not a racist country, the country that elected Barack Obama 
President. We are not an anti-Semitic country. But there was a 
very deliberate effort to propagandize and to activate the most 
unstable and extremist elements of the country, and even if 
that's one percent of the American people, that's still a few 
million people.
    It bore fruit for Vladimir Putin in a lot of different 
ways, but certainly in what took place in Charlottesville, 
where you had Americans marching right out in the open as 
Nazis, Klansmen, fascists in our country.
    So, I want to ask a question about online hatred and these 
efforts to go out and find people using what ``Cambridge 
Analytica'' called the dark triad of narcissism, 
Machiavellianism, and psychopathy, people who are 
psychologically predisposed to go out and to demonstrate hate 
in a violent way.
    What are we going to do about that? Even if the vast 
majority of the country doesn't stand for that, what's the 
proper response to it?
    I don't know whether Mr. Orsini and Mr. Shaffir have any 
thoughts about that, and maybe Mr. Shelton also, if you've 
worked on it.
    Mr. Shelton. Let me just begin by saying that as we look at 
these challenges and these problems, it is important that we 
point out how similar they are, how the strategies, the 
ideologies that are used to lace these together are so clear 
and clean. If you separate them out, you see that as we think 
about the attacks on African Americans, as we look at the whole 
slavery experience, we note it was done as a tool to be able to 
marginalize African Americans or be able to continue to take 
advantage and, again, seek whatever the spoils is they wanted 
along those lines and what will be perceived as an acceptable 
way.
    When we think about the attacks on our Jewish friends, 
going after them because of their beliefs and their 
commitments, the same thing applies.
    When I think about Native Americans, of course, we don't 
talk enough about it, in my opinion, about the genocide that 
took place and the land that was being taken and, of course, 
the natural resources that were being sought in those cases as 
well, and to make it acceptable to be able to show them as less 
than human beings as well.
    One of the things that go throughout all of this, of 
course, is the marginalization that goes with the 
characterization of each of these groups as being less than 
human beings, making it acceptable for the kind of horrific 
things done to them to be done to them and nothing should be 
done about it.
    So, indeed, this is important that we look at all these 
issues and think about them in that context, and think about 
even those that promote the ideologies of the Third Reich, the 
white supremacist, and others along those lines, and what they 
seek to gain and what those who actually fund them seek to gain 
as they continue along these lines. So, it needs to be worked 
together.
    Mr. Orsini. If I may. Thank you. I think it's a very 
important question. I'm an individual that's on the ground 
looking at anti-Semitism, trying to keep a community safe, and 
I think it's very important for our community to report 
everything. However, I've spent a lifetime raising my right 
hand to protect the Constitution of the United States, firmly 
believing the First Amendment right, speech, is important.
    However, what we see on the ground is hate speech; not a 
crime, but it leads into a hate crime. And we have to have a 
mechanism or a tool for our law enforcement officials when they 
see a swastika out there and it gets reported, not to say, it's 
protected First Amendment right speech. There's nothing we 
could do about it.
    We need to work together with our law enforcement partners 
to come up with a way to assess what the true threat is out 
there from these groups, because it's out there. A large amount 
of the community does not even know who Patriot Front, Identity 
Evropa are. We see those signs of hate everywhere across the 
country. They're reported. However, most of the things that are 
out there are protected First Amendment speech.
    Unfortunately, in our community, the African American 
community, the Muslim communities, affected communities, those 
signs of hate are important to understand, recognize, and 
report. I think it's very important for us to work with the 
government to come up with a method where we just don't dismiss 
it as protected First Amendment speech, because we truly do 
need to assess and mitigate those threats out there.
    Chairwoman Maloney. Thank you for that important point. 
Your time has expired, but thank you.
    I now recognize the gentleman from Ohio, Mr. Bob Gibbs, for 
questions.
    Mr. Gibbs. Thank you, Madam Chair. And thank you all for 
coming in today, and thank you for your work to ensure that the 
horrific events that happened in the Holocaust never happen 
again.
    And thank you to Mr.--say your name right--Shaffir for 
coming in and giving us your testimony. Hopefully nothing like 
that--human beings ever do that to another human being ever 
again. So, my heart goes off for your heart. God bless you.
    I was also stunned in Dr. Friedberg's testimony when she 
mentioned Henry Ford being anti-Semitic. I had no idea, and I 
googled it, and in the early 20th century, things occurred that 
just--I just--it was stunning to me. I just had no idea. So, I 
guess I learn something every day, and it was--it was just 
amazing to me that that was going on.
    I don't have a question for you. I just wanted to make that 
comment.
    But, Ambassador Gold, recently, Prime Minister Netanyahu 
said that--called President Trump the best friend Israel has 
ever had in the White House. In his first term, he has done 
numerous things to ensure Israeli is safe and secure, and I 
just want to list those quickly. If you disagree, just 
interrupt me, but he relocated the U.S. Embassy to Jerusalem; 
he recognized Golan Heights as part of Israel; he recently 
issued an executive order condemning anti-Semitism at U.S. 
college campuses; he withdrew from the failed Iran nuclear 
deal; he's a strong opponent--a strong opponent of Boycott, 
Divester, Sanction movement, BDS; and, also, he just--as you 
saw this week--I know you were there yesterday--the historic 
peace plan, and these are impressive accomplishments.
    Would you agree, Mr. Gold?
    Mr. Gold. Again, I do not want to get drawn into your 
American domestic ping pong.
    Mr. Gibbs. OK.
    Mr. Gold. However, when somebody does something for you 
which is exceptional, which stands out, it's rude not to say 
thank you. And I'm particularly grateful for what President 
Trump has done. Now, I think that these are ideas that have 
been out there in the American discussion for a long time.
    In 1995, you had the Jerusalem Embassy Act supported by Tom 
Daschle and Bob Dole. Now, why is that important? Because there 
was a bipartisan spirit supporting these kind of moves, but it 
just got stuck and no one did anything, and the first one who 
did it was President Trump, to actually move the embassy.
    So, many of the actions that the President has taken are 
actions that have been suggested, thought about, legislated 
about, but no one did anything. He did it, and I think that's 
appreciated by the people of Israel.
    Mr. Gibbs. I appreciate that.
    Last year, in the House, we voted to condemn the BDS 
movement with 398 votes, including 209 Democrats, very 
bipartisan. But there's some of my colleagues here in Congress 
that support the BDS movement. Do you think--what signal does 
that send to Israel?
    We had a strong bipartisan vote, but then we have some that 
have come out strongly against--supporting the BDS movement.
    Mr. Gold. I'm just going to put it this way: BDS, from my 
standpoint, is evil. And you know why it's so painful? Because 
for us to build a new future in the Middle East with our Arab 
neighbors, we can't have boycotts. We can't have divestment. We 
can't have sanctions on each other.
    What is happening now in parts of the West Bank, for 
example, is that we're building new malls, new factories that--
in which Jews and Palestinians are shopping together, working 
together, living together. You want to be inspired? Want to 
make peace? Go to Hadassah Hospital. Do you know what you'll 
see in the Hadassah Hospital when you go in the emergency room? 
Jewish doctors, Palestinian doctors, Jewish patients, 
Palestinian patients, all together trying to build an effective 
health system for the city of Jerusalem.
    That's what we need, and we don't need people to come with 
ideologies from South Africa or from other places telling us 
that we should be boycotting each other. That isn't going to 
make peace. That's going to make the hatred worse.
    Mr. Gibbs. I totally agree, because I think the more we 
interact and have commerce and trade, we build those 
relationships, and the region and the world is a safer place, 
and we have more respect for each other. So----
    Mr. Gold. 100 percent.
    Mr. Gibbs [continuing]. I totally agree with you, and I, 
you know, hope that peace plan moving forward that the 
President put out this week moves forward in a judicial way and 
we get it done.
    So, I yield back. Thank you.
    Chairwoman Maloney. Thank you.
    I recognize the gentleman from California, Mr. Harley 
Rouda, for questions.
    Mr. Rouda. Thank you, Chairwoman, and thank you for 
convening this very important hearing. I'm anxious to bring it 
back to the bipartisan purposes that we're all here for. And 
thank you for all the witnesses, for your testimony as well.
    I know some of the previous testimony talked about how we 
have seen, with recent surveys and polling, that many of our 
teenagers don't fully understand what occurred in World War II, 
what occurred in the Holocaust, what occurred with the rise of 
Hitler. And, in my district, we have seen firsthand the 
consequences of this ignorance.
    In my district, a young college student was murdered by a 
high school acquaintance who had joined a far right neo-Nazi 
group. In my district, teens played a drinking game around cups 
arranged in a swastika and bragged about German engineering on 
social media. In my district, members of a water polo team held 
their hands up in a Nazi salute while singing a German Nazi 
propaganda song. In my district, synagogues have been 
desecrated while neo-Nazi recruitment flyers appear again and 
again on the campuses of high schools and colleges. In my 
district, watermelons have been thrown on the front steps of 
African American students. In my district, it is not uncommon 
to see white supremacy flags flying behind cars and trucks as 
they travel across the roads and highways in our district.
    In the aftermath of many of these incidents, what we have 
seen is encouraging. The southern California Jewish community 
did something incredible. They embraced the teens that have 
been involved in some of these incidents and educated them. 
They sat down with kids with Eva Schloss, the stepsister of 
Anne Frank, invited them into their synagogues, and helped them 
understand what had transpired, showing very clearly how 
important education and elimination of ignorance is.
    I want to turn to Dr. Friedberg, who serves as a historian 
at the United States Holocaust Memorial Museum. Can you tell us 
why this education is so important, not just for teenagers here 
in the United States, but for all of us in the United States 
and across the globe?
    Ms. Friedberg. Thank you. Thank you, Congressman, and I 
wish you didn't have such a long list to give.
    It's about more than just Holocaust education. As a 
historian, I can say that I'm very disturbed by the general 
decline in the teaching of history around this Nation. I know 
that when our partners from Europe and other places abroad 
come, they are surprised because the United States does not 
have a national curriculum or national education standards. 
There are benefits and negatives to that, but in most other 
countries, there are standards. We leave things to state and 
local levels. So, it's not a uniform thing.
    One of our goals at the museum is to lift the level of 
quality Holocaust education across the country by training 
teachers, by facilitating regional cores so that local teachers 
who are experienced--and they don't have to just be in history; 
they can be in a literature class, they can be in what we used 
to call civics, they can be a religious, faith-based class, to 
enable them to work with the direct evidence of the Holocaust 
and teach and facilitate in a responsible and meticulous way.
    One of the points I'd most like to make is that even people 
who think that they know about the Holocaust often talk about 
it in such a simplistic way as though it's some kind of 
morality tale, where there is just, you know, pure evil and 
pure good. Obviously, there is pure evil and good in the story 
of the Holocaust, but the vast majority of people who lived in 
Europe during the time were a mixture, either were onlookers or 
complicit in some ways and helpful in others.
    We had a special exhibit a few years ago exactly on this 
topic called ``Some Were Neighbors,'' and I encourage you to 
look at our online version of it, which describes the way that 
everyday people had--everyday, ordinary people had choices 
about whether to get involved, whether to stand by, and whether 
to facilitate. So, it's about more than just numbers and 
statistics; it's dates. It's really about social cohesion and 
psychology.
    Mr. Rouda. Thank you. And thank you for your leadership in 
this area.
    Currently, only 12 states across the country require 
Holocaust education. And on Monday, I'm very proud that 
Chairwoman Maloney introduced legislation to ensure that 
teachers across the country have access to the resources they 
need to teach about the Holocaust.
    But I do want to point out: You know, we can legislate all 
we want to fight hate, fight anti-Semitism, but the reality is 
it has to start in our hearts and our head. It requires leaders 
across our country, leaders in the White House, the 
administration, in this body, in academia, and elsewhere, to 
make sure that we are all fighting hand in hand, shoulder to 
shoulder to fight this.
    And, Mr. Greenblatt, I'd like to turn to you for closing 
comments on my time here. Can you talk about some of your 
education initiatives and how important they are as well?
    Mr. Greenblatt. The ADL is--thank you for the question. The 
ADL is one of the leading providers to the United States of 
anti-bias, anti-hate content in schools. We reach over 1.5 
million students, including many in Orange County and across 
southern California.
    We think, indeed, education is the best antidote to 
intolerance. Teaching about the Holocaust, we've seen the 
studies. When students understand what happened in the Shoah, 
it leads to a greater awareness by anti-Semitism and a greater 
tolerance for people from minority groups. So, we know it 
works, we need more of it, and let's hope the Senate passes the 
Never Again Education Act.
    Mr. Rouda. Thank you very much. I yield back.
    Chairwoman Maloney. Thank you.
    I recognize the gentleman from Texas, Mr. Chip Roy, for 
questions.
    Mr. Roy. I thank the chair.
    And I thank each of you for taking time to visit with us 
here today.
    Good to see you, Mr. Shelton.
    Mr. Shaffir, I just want to say thank you for being here. 
Thank you for your testimony, and by that, I don't mean your 
testimony here, but your testimony of faith triumphant and what 
you represent. And rest assured, there are many of us committed 
to ensuring that the history of the horrors of the Holocaust 
are known, and that what I believe is the hope for humanity 
that now emerges from that, and the hope that we see in the 
Jewish people is something that we will be able to carry 
forward together, so thank you for being here. It means a great 
deal.
    I've had the fortune to visit Israel twice. I hope to go 
again soon. I've always had great joy going there. My most 
recent visit, my wife and I were struck by two things in 
particular, one, we went there on an APEC trip. We were there 
on a bipartisan basis for a few days, Democrats for a week, 
Republicans, we overlapped.
    We were there and we had, as many of my colleagues 
remember, we joined together for Shabbat dinner and broke 
bread, drank wine, were visiting and talking about most things, 
you know, nonpolitical, a few things political but for the most 
part, just life. And we were just struck by the happiness of 
the Jewish people.
    We were struck by the fact that they often poll, you know, 
happiness worldwide. I don't know who does these polls, but the 
Israelis tend to poll in the top ten of happiness worldwide, 
this despite having 150,000 missiles pointing at Tel Aviv and 
Jerusalem on a given day, despite being under constant siege in 
a, you know, nation that is a fraction of the size of New 
Jersey.
    So, it struck us about how happy the Jewish people are. As 
a result, my wife and I, we came back and joined with some 
friends of ours in Austin, Texas, where I live outside of, and 
now we have shut down on Sundays and we put our telephones and 
our iPads down and have started joining in Sunday suppers and 
trying to restore a sense of community and have been doing that 
religiously, so to speak, ever since last August on our return 
from Israel. And it was a response to our great affection for 
our experience in our time in Israel. So, again, thank you.
    I'll tell you, the second thing that struck us was Yad 
Vashem, and I had not had a chance to go there in my previous 
trip to Israel. I was struck there also by the feeling of hope 
that you get as you walk through obviously the horrors of the 
history of the Holocaust, but you see sort of light at the end 
of the journey, and it is, of course, by design. The design of 
the museum is extraordinary. But you look through the old 
letters and you look through the hope of the Jewish people, and 
it struck us in an extraordinary way.
    So, a couple of questions, Mr. Gold, for you. Can there 
be--just yes or no, because I'm using a little bit of time, but 
can there be any room for error in Israel in defending herself 
from her enemies? Is there much room for error given the 
assault, constant siege on Israel?
    Mr. Gold. Well, some of that comes down----
    Mr. Roy. Microphone.
    Mr. Gold. Some of that comes down to a space in time.
    Mr. Roy. Right.
    Mr. Gold. I mean, how long does it take to fly across the 
United States----
    Mr. Roy. Right.
    Mr. Gold [continuing]. In a jet plane?
    Mr. Roy. Yes, five, six hours. Depends on where you're 
going, yes.
    Mr. Gold. So, to fly from the Jordan River to the 
Mediterranean, three minutes.
    Mr. Roy. Right.
    Mr. Gold. So, the margin for error is pretty much reduced.
    Mr. Roy. And a couple other questions. Are there currently 
attacks coming in from Gaza despite unilateral withdrawal by 
Israel in 2005, like on a regular basis?
    Mr. Gold. Absolutely. In other words--in fact, I can tell 
you that we withdrew from Gaza in 2005. And in the period right 
after the withdrawal, the amount of rocket fire on Israel----
    Mr. Roy. Has gone up, yes.
    Mr. Gold [continuing]. Went up by 500 percent.
    Mr. Roy. Are there currently about 120,000, 150,000 rockets 
sitting in Lebanon pointing roughly at Jerusalem and Tel Aviv 
to the best of the intelligence of Israel?
    Mr. Gold. And other places.
    Mr. Roy. And other places. Would Israel be safe without 
Iron Dome, David's Sling, and these technologies to knock down 
missiles?
    Mr. Gold. No. It would require Israel to live on a hair 
trigger.
    Mr. Roy. Right. And you've already said that Iran is an 
ongoing threat to Israel.
    Here's my question: How important is a strong and sovereign 
Israel to the hope in the future of the Jewish people? And what 
role do efforts to deny the historical connection to the land 
of Israel, including Jerusalem, play in the rise of anti-
Semitism?
    Mr. Gold. That's an excellent question.
    Mr. Roy. A blind squirrel finds a-every once in a while.
    Mr. Gold. But I would say this, that the historical 
connection of the Jewish people with, let's say, Jerusalem, is 
something which can be documented, which can be shown, which 
can be demonstrated in terms of archeological finds that we 
have. And when countries get behind resolutions at UNESCO that 
try and deny that connection----
    Mr. Roy. Right.
    Mr. Gold [continuing]. First of all, it delays peace. It 
makes our adversaries think, you know what, maybe we're right. 
And it is a vile lie. And you know how you know that? Open the 
Quran, see the mention of the Baitul Maqdis, which is the--
Arabic for the temple. The Arabs knew it, the Muslims knew it, 
we're connected with Jerusalem and with the land.
    Mr. Roy. Madam Chair, if I might do a unanimous consent 
request?
    Chairwoman Maloney. What is it?
    Mr. Roy. I would like--I have two articles here I want to 
get in the record, I ran out of time, that--there's just two 
articles. While Democratic Mayor Bill deBlasio and Governor 
Andrew Cuomo are letting anti-Semitic attackers go free without 
bail, just yesterday, Attorney General Barr announced a zero-
tolerance policy toward perpetrators of anti-Semitic crimes.
    I ask that an article titled, quote, ``Bail Reform Is 
Setting Suspects Free After String of Anti-Semitic Attacks'' 
and one titled, ``Barr Says Justice Department Will Get More 
Involved in Fighting Anti-Semitic Attacks'' be submitted for 
the record.
    Chairwoman Maloney. OK. So, ordered. Give us a copy of it.
    Mr. Roy. Thank you.
    Chairwoman Maloney. OK. I now recognize Debbie Wasserman 
Schultz of Florida for questions.
    Ms. Wasserman Schultz. Thank you, Madam Chair.
    I just want to stipulate at the outset of my questions that 
it would be hard to feel more strongly about the absolute 
necessity that Israel remain a Jewish and democratic state, and 
also, that this hearing has nothing to do with the--our support 
for and belief that Israel should remain so.
    To return to the focus of this hearing, which is the 
ongoing battle against hate with the backdrop of International 
Holocaust Remembrance Day, and the 75th anniversary of the 
liberation of Auschwitz, I just, as it was mentioned earlier, 
returned from Poland and Israel to mark that anniversary.
    When you walk down the platform, the train platform at 
Birkenau, and I have been to Auschwitz-Birkenau before, but the 
enormity of the evil, and the human capacity for evil that 
exists today, very clearly, really overwhelms you. So, the 
importance of this hearing and shining a spotlight 
continuously, never forgetting that that human capacity for 
hatred and evil has not diminished, is absolutely critical.
    The statistics of--have been documented by ADL. In 2018, 
they tracked a staggering 1,800 anti-Semitic incidents in the 
United States, finding a 105 percent increase in anti-Semitic 
assaults, and a five percent increase in harassment over the 
previous year. I'm glad Mr. Rouda read through the litany of 
anti-Semitic attacks in his own district.
    When I landed at the airport in my district, at the end of 
this trip last week, I landed to a text from one of my mayors 
with a flyer that was being distributed throughout the city 
that says, as follows, a red flyer with a Nazi SS--a picture of 
a Nazi SS henchman on it that says, ``Our patience has its 
limits. One day we will shut their dirty, lying, Jewish 
mouths.'' Learn more at--I won't promote the website that that 
was on the flyer. Hatred knows no boundaries, and it has 
existed through thousands of years.
    Mr. Greenblatt, I appreciate the efforts of ADL. I'd like 
to ask you, given that we appear to be living in an age where 
we've had a resurgence of conspiracy theories that are 
festering and growing and being promoted by the highest levels 
of power in our country, and condoned and pedaled, in some 
cases, by the highest level of power in our country, do you see 
a connection between the growth of conspiratorial thinking and 
the rise of anti-Semitism and bigotry?
    Mr. Greenblatt. Thank you for the question. We should talk 
offline about that flyer and that mayor----
    Ms. Wasserman Schultz. Yes.
    Mr. Greenblatt [continuing]. So, I can make sure my staff 
in Florida is following up.
    Ms. Wasserman Schultz. Thank you.
    Mr. Greenblatt. There is no doubt that the pension for 
conspiracy theories are contributing to the rise in prejudice 
generally, and specifically to the spike in anti-Semitism. 
Essentially, anti-Semitism is, at its very root, a conspiracy 
theory that the Jews are somehow--both have too much power and 
yet are weak, that we are uber human and subhuman, that we are 
responsible for all the world's ills, and it goes on and on.
    Indeed, when people in power promote prejudice, it 
endangers all of us. The Jews are typically the first to be 
harmed, but anti-Semitism never ends with the Jews. It ends up 
consuming everyone. So, whether you're the President of the 
United States or the president of a university or the president 
of a school board, we need everyone to speak out firmly and 
forcefully against anti-Semitism and the conspiracy theories 
that often are associated with it.
    Ms. Wasserman Schultz. Thank you. In the words of Pastor 
Niemoller, ``I did not speak out, and there was no one left to 
speak for me.''
    Mr. Greenblatt. Right.
    Ms. Wasserman Schultz. Mr. Shelton, thank you so much for 
the work of the NAACP in combating bigotry in all its forms, in 
being relentless, and always being in the forefront of our 
Nation's leadership on combating hatred. The Jewish and African 
American communities have walked in lockstep for generations, 
and that is the purpose of our forming a bipartisan coalition, 
Black Jewish Caucus in the Congress.
    Can you--given that we are now dealing with the 21st 
century version of age-old bigotry and anti-Semitism and hatred 
in all its forms, can you talk about what we can do through 
both of our communities to work together to fight to renew our 
fight against hatred directed at both of our communities?
    Mr. Shelton. First, thank you so much for the comments. 
It's extremely important that we focus on the challenges of all 
communities and recognize what we call a convergence in 
interests. That is, as we think about what our communities 
want, it is so amazing, if you speak to different groups 
separately, that they'll say the same thing.
    We want our families safe and secure and have a real 
opportunity for a future. We want top notch education and good 
healthcare. So, in other words, understanding each of our 
pathways that bring us to this conversation is extremely 
important as well.
    As they say, we may be--as the saying goes, we may be--we 
may come from different places and different ways, but we are 
in the same boat now, and as such, understanding those 
experiences really makes a difference. When I talk to my Jewish 
friends about the experiences coming to this country, it's 
amazing how the challenges and negative impacts are described 
in such similar ways.
    It was a different experience. It was a different time, a 
different group of people, but the outcomes were just so 
similar. The attacks were too eerily similar as well, and the 
challenges are similar too. So, coming together to celebrate 
who we are and what we are, each other's--the passions for life 
and experiences is a very important part of it, but also, 
understanding what our vision for the future is is important as 
well.
    Again, I sit down with my friends from ADL or other 
organizations to talk about these issues, my friends at the 
Religious Action Center, a reform Judaism, to discuss these 
concerns and otherwise and others from the Jewish community.
    I would say that applies to so many other communities as 
well. It doesn't talk about the African American Jewish 
community. It is still a wonderful thing that we see that we've 
gone through a lot of pain for different reasons and in 
different ways. But what we seek together in understanding that 
working together, we can achieve these goals, I think is where 
we find ourselves locking arms a little bit more tightly.
    Ms. Wasserman Schultz. Absolutely.
    Madam Chair, our communities are clearly inextricably 
linked and. And what Mr. Shelton said about the minority 
communities across the globe, the moral imperative for us to 
come together, unite against hate and continue to shine a light 
on the evil, that is still, unfortunately, permeating societies 
all across the globe.
    Thank you. I yield back. And thank you, Madam Chair, for 
your indulgence.
    Chairwoman Maloney. Thank you. Your time is expired.
    We now recognize the gentleman from Wisconsin, Mr. Glenn 
Grothman, for questions.
    Mr. Grothman. Thank you very much.
    First of all, some good news. I spent as much time as 
anyone in my district, and I know the Congressman from 
California may see rising amounts of evil in his district, but 
I have never heard anybody utter anything the least bit anti-
Semitic--or maybe one guy, you could say, told a racist joke. 
But in my district, I don't think it's like California, and I 
think much more accepting in my district. So, I don't want to 
make it appear like all America is that way.
    In any event, there is, seems to be, though more mainstream 
politicians, trafficking in hate in an effort to apparently 
feel it's going to raise their profile and get more easily 
elected.
    I remember even before I was involved in politics, reading 
about the Crown Heights affair in New York. Embarrassingly, a 
person posing as a Christian minister inciting hatred, winding 
up encouraging somebody to die. I couldn't believe we had 
somebody like that in New York. I was glad he wasn't in 
Milwaukee. A few years later at Freddy's Fashion Mart, again, 
fanning the flames of anti-Semitism and resulting in people 
dying. I suppose you're always going to have in a country of 
over 300 million a few horrible, evil people like that.
    However, what concerns me is rather than being swept into 
history's background, we recently have had this person become 
somebody who a lot of politicians like to stand with, look for 
him for getting more votes, and mainstream politicians, 
successful politicians. Nancy Pelosi, the Speaker of the House, 
Reverend Sharpton, thank you for saving America and crediting 
him with getting the majority back in this House.
    So, this is not somebody people run from. It's something 
that mainstream politicians are embracing this individual. One 
after another, people are looking to become President. I met 
with this guy in New York, you know, Amy Klobuchar, the mayor 
there of South Bend, it concerns me.
    I'd like if any of you would comment as the--how this 
embarrassingly, purportedly Christian minister, why this guy is 
so beloved, or apparently respected by so many--what should be 
mainstream politicians.
    Mr. Greenblatt. Mr. Congressman, if I might just generally 
respond. First of all, I would say that what we've talked 
about, some instances like what has happened in New York, for 
example, what happened in Pittsburgh, no state is immune from 
hate. There are approximately 84--the ADL tracked 84 hate 
incidents in the state of Wisconsin in 2019. And, in fact, it 
was in Baraboo, which is a suburb of Milwaukee, where we had 
high school students doing the Heil Hitler salute last year in 
the photo of their student prom.
    Mr. Grothman. Baraboo is more outside of Madison, but go 
ahead.
    Mr. Greenblatt. Fair enough. So, I just want to point out 
the fact that prejudice can happen in any geography. It can be 
a problem in the majority, it can be a problem in minority 
communities. It can be a problem in Christian communities, as 
well as non-Christian communities. So, no one is immune from 
it. The question becomes what do we do about it? One thing I 
will just say is----
    Mr. Grothman. Well, the question I'm trying to get though 
is----
    Mr. Greenblatt. Yes.
    Mr. Grothman [continuing]. You know, what is this about 
this embrace----
    Mr. Greenblatt. Right.
    Mr. Grothman [continuing]. Of Reverend Sharpton? I mean, 
there are----
    Mr. Greenblatt. Look, I was going to say to that like, 
again, I think Reverend Sharpton has a long track record. I 
haven't agreed with all of his statements. On the other hand, I 
will tell you, after the situation and the murder in Jersey 
City, I remember getting a text from him on my phone, ``Hey, 
what can we do about this?'' He's consistently addressed these 
issues on his television program. So, I think he has a mixed 
track record for many, but I appreciate some of the 
outspokenness he's had of late.
    Mr. Grothman. OK. There's a group that sometimes sends me 
stuff called AMCHA Initiative, and they sometimes talk about 
anti-Semitism on college campuses. I wondered if any of you 
could comment on what's going on on college campuses and why--
you know, this is where, kind of, the minds of the future are 
molded, so to speak--and why it seems to be you have more--I 
don't know what to call it intellectual, I don't know what you 
call it--but why anti-Semitism, why it seems to--why American 
campuses seem to be a place where it seems to foment a little 
bit more? What's the deal with American campuses?
    Mr. Greenblatt. Well, I'll respond to that, but would 
invite others to jump in. I mean, I think, Mr. Congressman, one 
of the challenges that the way that Jewish state has often 
demonized on college campuses, saying that it's--using the same 
tropes that is often used to demonize the Jewish people.
    Once they said the Jewish people were foreign, that they 
were illegitimate, that they were alien, should go back to 
their countries, now they say that about the Jewish state on 
many of these college campuses. We need university presidents 
to recognize--I certainly believe in free speech deeply, even 
speech we don't like, but there is a price for free speech. 
It's not free.
    And university presidents need to not dismiss when anti-
Semitism is used to demonize the state of Israel. They need to 
call it out and make sure all students understand that 
prejudice shouldn't be tolerated, even when it is supposedly 
being used, you know, in a debate about politics.
    Chairwoman Maloney. The gentleman's time is expired.
    I now recognize the gentleman from Maryland, Mr. John 
Sarbanes, for questions.
    Mr. Sarbanes. Thank you, Madam Chair.
    I thank everybody on the panel for being here, for staying 
with us so long, and for your incredibly compelling and 
important testimony on the topic of today's hearing.
    Mr. Shelton, you talked about convergence of interest, and 
I think that's a really important point to emphasize. As you 
were saying that, I was recalling that the AHEPA, which is 
American Hellenic Education and Progressive Association, so 
that's the largest and most active organization in the country 
that represents interests of the Greek American community. It 
was formed in the south in response to Klan activity that was 
directed at Greek Americans back in the 1920's and 1930's. So, 
that convergence of interest is very directly bearing on that.
    But all of these communities that we're speaking about 
today have that conversions of interest. And, clearly, there's 
two very important responses that we need to have when these 
incidents of hate speech, antireligious, racial incidents 
occur, acts of violence. One is to show an immediate sense of 
solidarity in responding to it; the other is to take very 
practical steps to try to protect against these attacks, and I 
think we're bringing important focus in the Congress to both of 
those things.
    But if I could go back to the solidarity element for a 
moment. Often, our concept of solidarity is reactive; in other 
words, something occurs and then we assemble a kind of unified 
coalition response to that to condemn it, and obviously, that's 
an important thing to do. What that seeks to overcome is human 
nature, because when an incident occurs the immediate reflexive 
human response is to think, am I part of the group that was 
attacked, or am I not part of the group?
    And if you weren't part of the group, the specific group 
that experienced the pain or the attack, your reflex is, in a 
sense, relief. You momentarily set yourself apart. That's a 
difficult thing to overcome. But we need to get to a place 
where this convergence of interest concept is so deep and 
abiding that if any particular subgroup within our community, 
in our society feels pain or is attacked, that we feel it 
regardless of whether we are part of that group.
    What I wanted to ask anyone to comment on is, what 
opportunities do you see or activities underway that are 
knitting together this sense of solidarity sort of at the 
ground level, on the front end, if you will, so that when the 
attack occurs the broad community feels it in that instant 
rather than there being that kind of delayed response, which is 
important, but is a delayed response?
    So, maybe you could speak to in Pittsburgh and other places 
where different communities are aligned with each other, 
creating coalitions, so that they feel equally these attacks 
regardless of which group it's directed at.
    Mr. Orsini. I think that's a very important point. When the 
attack happened in Pittsburgh, what happened prior to the 
attack--we have a community relations counsel. Our community 
relations counsel director in Pittsburgh spends time with all 
faith-based groups. That's his job. And he convenes an 
interfaith committee. We talk to different groups.
    When the attack happened in Pittsburgh, it was 
instantaneous. We had every faith-based group, African 
American, Muslim, Christian groups surrounding us in 
Pittsburgh. That didn't happen by chance. That happened by that 
interfaith community working together, and we felt that through 
the community in Pittsburgh right away.
    We had a Muslim group working with us, and, quite frankly, 
they were one of the first groups that donate money to the 
Victims of Terror Fund, and it was heartening to see that. But 
that work was done prior to that shooting.
    Chairwoman Maloney. The gentleman's time is expired. Thank 
you so much.
    I'd now recognize the gentlelady from Illinois, Ms. Robin 
Kelly. Pardon me? Oh, we didn't see you. I did not see him come 
in.
    The gentleman, Mr. Keller, is recognized.
    Mr. Keller. Thank you, Madam Chair. And I would like to 
thank all of the witnesses on today's panel for being here for 
this incredibly important hearing.
    When discussing the issue of education, President George W. 
Bush said, ``Continuing failed policies meant leaving children 
stuck with the soft bigotry of low expectations.'' Now, we're 
discussing--and when we're discussing anti-Semitism today we 
can say that we are facing hard bigotry of soft words. These 
words come in phrases like boycott, divestment, and sanctions 
of Israel.
    Even worse, they come in deafening silence from people in 
this country when terrorists or bigots physically attack or 
kill people of the Jewish faith merely because of their 
religion. Americans must not be silent in the face of this open 
and ugly bigotry. Anti-Semitism is, unfortunately, still alive 
now 75 years after the liberation of Auschwitz. The Simon 
Wiesenthal Center has produced a list of the worst instances of 
anti-Semitism, including some as recent as last month during 
the Hanukkah season.
    Ambassador Gold, can you speak to the trend we've seen with 
these anti-Semitic attacks, and what can be done, or what we 
can be doing to move toward the goal of eliminating the 
boycott, divestment, and sanction and other forms of anti-
Semitism?
    Mr. Gold. I'm a big believer in knowing who your adversary 
is. You know, if you're in the military, there's an 
intelligence branch, and it tries to give a picture of how your 
adversary is laying out his forces, and that's what you have to 
do in this business too. You have to find out who they are and 
what they're doing.
    Many times people don't know or it's left up to op-ed 
writers to conjecture where this is coming from. But you can 
get to it. You can find out. It's important if you're going to 
try to figure out where the anti-Semitism is coming from to 
have multilingual capacity.
    When I wrote a book back in 2003 called ``Hatred's 
Kingdom'' about how did the hatred that was--that entered into, 
that was part of the attack on America on 9/11, where did it 
come from? I hired a team which could actually read off the web 
some of the most sensitive Arabic information. It was not 
classified. People weren't even aware of it.
    So, that's what you have to do. You have to--whether it's 
in Arabic or it's in Farsi or it's in Urdu, you've got to see 
where it's coming from. And once you know that, you have a 
criminal justice system that should operate.
    And I want to stress something which is obvious probably to 
everybody here, and that is when I bring up subjects that sound 
like the problems of radical Islam, it's not against all 
Muslims. It's not something that should be misinterpreted. But 
radical Islam is as much a threat to Muslims as it is to Jews 
or Christians.
    Mr. Keller. I think people that are silent--you know, that 
silence, sometimes you might want to consider that some of 
those may be adversarial, too.
    Mr. Greenblatt. Mr. Keller, may I just say something?
    Mr. Keller. Well, actually I wanted to get to another point 
for the Ambassador if I can.
    You know, President Trump has been at the forefront of this 
issue taking actions such as relocating the U.S. Embassy to 
Jerusalem, recognizing Israel sovereignty of the Golan Heights, 
signing an executive order to combat anti-Semitism on college 
campuses, and just yesterday, releasing his blueprint for peace 
with the Palestinians.
    Again, for the Ambassador, how do you think these actions 
have impacted the U.S. relationship with Israel today, and what 
will its relationship look like moving forward?
    Mr. Gold. I think the actions taken by President Trump are 
very dear to the Israeli body politic. And, you know, we've 
already built up, over the years, a strong bond between the 
American people and the people of Israel, but certainly, these 
actions strengthen that bond and allow us to move forward to 
build a safer region.
    Mr. Keller. Thank you, and I yield back.
    Chairwoman Maloney. Thank you.
    I now recognize the gentlelady from Illinois, Ms. Robin 
Kelly, for questions.
    Ms. Kelly. Not that I want to bring any of you--well, thank 
you, first of all--into anything political, but I just have to 
say, since Al Sharpton's name was raised, and I don't believe 
in everything he has said either, but also I just have to say, 
I feel like we have one of the most divisive people in this 
21st century that we've seen in a long time, and people--he has 
a base and he has elected officials that follow him.
    So, just to, you know, pick on Al Sharpton, you know, is 
very interesting to me. But anyway, thank you all for your 
testimony on this important day as we remember the horrors of 
the Holocaust. And thank you so much for being here. Thank you 
for your courage and, you know, wanting to educate the next 
generation. You are very much a treasure.
    Chairwoman Maloney. Will the gentlelady yield for a second 
on Al Sharpton?
    Ms. Kelly. A second. I don't have a lot of time.
    Chairwoman Maloney. OK. We've had a terrible increase of 
incidents of anti-Semitism in the city that I represent, New 
York. And the community has come together. He has been one of 
the leaders in bringing the community together. His national 
organization has had numerous meetings reaching out to the 
community, preaching really that we have to unify and fight 
this.
    So, I thank the gentlelady for the point you made. Thank 
you. I yield back.
    Ms. Kelly. Sadly, in recent years, we've seen a rise in 
anti-Semitic Neo-Nazi rhetoric, fueled, in large part, by 
disinformation campaigns on social media; therefore, it is my 
opinion that it is really important not only to study the 
Holocaust as a historical event, but also use its lessons as 
daily reminders of the fragility of democracy and the 
importance of remaining ever vigilant in promoting human 
rights, because we have seen an increase in hate, period.
    Dr. Friedberg and Mr. Greenblatt, people frequently dismiss 
comparisons to Hitler and Nazi Germany because the Nazi regime 
and the Holocaust are so uniquely horrific, but can you please 
explain what Germany was like prior to the rise of the Nazi 
party? Meaning, was it considered an advanced country 
economically and culturally? Was there a constitution, a 
representative government?
    Ms. Friedberg. Thank you, Congresswoman, for the question. 
Yes, Germany was considered an advanced country. It was a 
democracy, although a very young democracy. It had been in 
existence for just over 10 years at the time that the Nazis 
rose to power. And as I mentioned earlier, they rose to power 
as part of a democratic process. Nonetheless, that did not 
inoculate that society from the dangers of Nazism.
    However, I do want to also emphasize that the Holocaust was 
not a tsunami. It was not something that once it started there 
was no way for it to stop. And I actually would like to say 
something that may be surprising to people. I find a great deal 
of inspiration in the history of the Holocaust, not in the 
horrors of it, but in the places where things went in a 
different direction.
    The Holocaust was not implemented uniformly, and by 
studying it, as I said, not in, sort of, broad generalities of 
good and evil, but in the specifics of each context and with 
precision, we are able to identify the variables, the contexts, 
and the choices and the roles of different people in society 
that made it better for Jews in some places, and worse in 
others.
    So, for example, we are very pleased to have a longstanding 
partnership with the ADL. Our law enforcement and society 
program trains members of the police. It trains every new FBI 
recruit, agent, and analyst every year, because we look back to 
this history, not just to make people feel sad or not just to 
warn us about hate, but to say, who are those people? Who are 
those who sit in roles that actually can protect our society so 
that those on the margins, the extremist haters, do not come 
forward?
    We have trained close to, I don't know, 50,000 or 60,000 
members of state judiciaries, members of the military. We work 
with every military academy. So, just to say that it's not just 
about whether society is in advance, but how do we make people 
aware of their roles and responsibilities?
    Ms. Kelly. I have another question for you. How did a 
modern, advanced, industrialized, diverse, and culturally rich 
nation devolve to genocide in a matter of years?
    Mr. Greenblatt. Yes. I think it's a great question, 
Congresswoman. You know, as I mentioned in my opening remarks, 
my grandfather was from Germany, and lived through and endured 
Nazi Germany and watched that industrialized democratic country 
descend into madness. And although he survived, most of his 
family was slaughtered. What he endured was unspeakable, and 
didn't even begin to touch on what Mr. Shaffir experienced.
    So, I think one of the things we need to look at, and we 
haven't even talked about it this morning, Ms. Chairwoman, is 
how Nazi Germany used the instruments of democracy to 
dehumanize, demonize, and, ultimately, lead to a path of 
genocide, and, in particular, media and social media. We 
haven't talked about the role of Silicon Valley. I know I only 
have a few seconds left, but it has got to be talked about this 
morning if we want to try to stop anti-Semitism and other forms 
of hate from spreading even further.
    Ms. Kelly. And I just wanted to share with you that I am a 
diversity trainer, and I started under----
    Mr. Greenblatt. Oh, is that right?
    Ms. Kelly [continuing]. Started under you guys.
    Mr. Greenblatt. Bravo. That's great.
    Ms. Kelly. Thank you. I yield back.
    Chairwoman Maloney. I now recognize the gentlewoman from 
Michigan, Mrs. Brenda Lawrence, for her questions.
    Mrs. Lawrence. Thank you, Madam Chair.
    I just want to be on the record, this is a very, very 
serious issue. I am a descendent of slaves. We just marked the 
400th year where this country that I love, these United States 
of America, enslaved, killed, and oppressed people, a 
democracy. This, the 75th year of recognizing the Holocaust 
that happened in a country where others saw a group of people 
being identified and persecuted. This is not a platform to 
promote, and to use a--this discussion to have political 
endorsements.
    We are talking about the United States of America. What are 
we doing here? How do we, as a country, not repeat what we know 
happened in this world, and in the United States of America? 
Shame on anyone that wants to use this to promote a candidate. 
So, I will continue with my statement now.
    We know--and I was raised by this woman whose tears were 
falling from her eyes during the civil rights movement. I was a 
little girl watching her cry as the hoses and the dogs are 
being sic'd on people in the south. She told me, Brenda, in 
your lifetime, you're going to have to educate people because 
we know racism is ignorance. It's the stereotypes. It's those 
generational, as we spoke of, just hatred that's passed along.
    She said, and then you're going to have to forgive them 
because if you don't, you consume their hatred and their anger. 
Why did I want to start a conversation and bring together two 
groups in this body that's supposed to pass laws and policies 
to stand together, to fight against hatred in America? The 
statement that I used, that Martin Luther King used, if we see 
it done to one, it's going to happen to others. We see through 
history that so many people sat on the sideline. And to sit 
anywhere in America today and say, Oh, I don't see it 
happening, they need to be slapped in the face with history and 
with reality.
    We have so much work to do. And spare me the ignorance and 
the lack of compassion. As a black woman in America, having a 
double whammy, being a woman who was oppressed, being an 
African American, I've had the opportunity to serve as a mayor 
of a city that I had to go to to protect the Jewish community, 
because I have one of the largest Jewish communities. Now to be 
their representative in Congress, I will not sit here and be 
silent as so many people did, as we know, when these incidents 
happened.
    My question, Mr. Greenblatt, has the Anti-Defamation League 
witnessed a similar uptick in violent hate crimes, and to what 
do you attribute this increase? We have not talked about what 
is happening where we're seeing more and more--and it's more 
violent. We talked about the words, the hatred of words, but 
now we're seeing violence.
    Mr. Greenblatt. Right.
    Mrs. Lawrence. And any of you, please, what is it that's 
happening that we as policymakers----
    Mr. Greenblatt. Right.
    Mrs. Lawrence [continuing]. Need to step up? So, please----
    Mr. Greenblatt. Well, Congresswoman, a few thoughts. So 
quickly, No. 1, again, I applaud your leadership in starting 
the bipartisan Black Jewish Caucus with Congresswoman Wasserman 
Schultz. It's so important, and hope we can find ways to work 
together. Just like the ADL and the NAACP, we have literally 
worked together for generations.
    No. 2, we talk about at the ADL the pyramid of hate. When 
you don't call out bigotry when it's spoken, it can lead to 
acts of hate, acts of hate like harassment, which can then lead 
to violence. Violence, when you don't interrupt it, can then 
lead to even worse, and, ultimately, to genocide.
    So, we believe prevention is better than response. And so 
that starts, in part, by something where you were kind of going 
earlier, using the bully pulpit. Leaders need to lead. And they 
don't just need to interrupt intolerance when it happens; they 
need to not allow intolerance to happen on their watch in the 
first place. That means using inclusive language, welcoming 
people of all their differences, and creating environments that 
are comfortable for everyone whether or not--no matter how you 
pray or where you're from or who you love. We need more of that 
in this country, and we need it now.
    Mrs. Lawrence. Mr. Shelton.
    Mr. Shelton. Just adding, the new technology is extremely 
important if you think of propagandizing of these hate 
manifests and ideologies. If you think about the utilization of 
social media tools to do everything from television shows to 
radio shows, music and everything else, they're trying to 
further indoctrinate these ideologies of hate into our everyday 
society.
    So, the bottom line is, you have to keep doing what you're 
doing. You've got to keep up with hearing from groups like ours 
about what----
    Mrs. Lawrence. Yes.
    Mr. Shelton [continuing]. We've experienced and what's 
going on across the country and develop new strategies, tools, 
and resources to stop it at every place along the way. They're 
digging into every little community, but they're also going 
very broad and extensive in many of the ideological things 
we're seeing being promoted by these hate mongers.
    Mrs. Lawrence. I know my time is up, but I must say, we 
must, Madam Chair, address social media that has become the new 
weapon of hatred and racism.
    I just want you all to know, as we have said, we have so 
much work to do. Thank you for being here.
    Thank you, Mr. Shaffir, for sharing your story. Thank you.
    Chairwoman Maloney. Thank you, Brenda.
    I now recognize the gentlelady from West Virginia, Mrs. 
Carol Miller for her questions.
    Mrs. Miller. Thank you, Chairwoman Maloney.
    And thank you all for being here today. This is such an 
important and somber topic, and we must continue to draw 
attention to make sure that things like the Holocaust never, 
ever happen again.
    I don't need to remind you that Monday was the 75th 
anniversary of the liberation of Auschwitz. The unspeakable 
horrors that occurred there at the hands of the Nazis, you 
know, 1.1 million people. The world watched in horror, because 
I don't know if it was naivete or if it was lack of the fact of 
the instant news like we have today that they didn't really 
comprehend that such things would happen.
    I grew up in the city of Beckley within the city of 
Columbus in a Jewish community. I grew up going to bat 
mitzvahs, bar mitzvahs. I went to my nephews' bar mitzvahs. 
Bless their heart, now they're all adults.
    And I think back to being in high school and one of the 
girls I knew, her mother had numbers tattooed on her arm. And, 
of course, you know, I was born in 1950--I shouldn't probably 
say that out loud--but growing up just when everyone came home 
from World War II, even I didn't really understand until I was 
an adult the horror, you know, but that's because I read and 
I--you know, I was able to educate myself. So, it's so very 
important that we pass this along, because history will repeat 
itself if we don't let people know what has happened in our 
past.
    You know, I'm thankful for the efforts that our President 
has taken to strengthen our relationship with Israel, and it, 
to me, is so important. I think we've moved the mark by doing 
what we've done and, you know, having the embassy in Jerusalem. 
I just can't comprehend the anti-Semitism that we are 
witnessing today.
    Ambassador Gold, the fight against hate and education about 
what has occurred during the Holocaust is so important to keep 
in mind as we create our policy in the future. How has the 
Holocaust's dark legacy impacted the people of Israel?
    Mr. Gold. My son served in the armored core of the Israeli 
Army, and I remember, at one point, his commanding officer 
takes him to Yad Vashem to show him the disaster that the 
Jewish people confronted during the Holocaust, and his officers 
try and imbue him as well as other soldiers with that message. 
So, it's very much--the Holocaust is very much in the 
conscience of Israel's citizenry.
    It doesn't make us less prone to compromise or to 
understand our neighbors by no means, but I think it adds to 
the inner conviction of the importance of our self-defense, 
especially when we have, not all neighbors, but certain 
neighbors that still use language that looks like it came out 
of Germany in the 1930's.
    Mrs. Miller. I have seen some of that language. I was 
fortunate to be able to go to the museum in Israel. When the 
guide took us in, he said, you have 45 minutes to view 
something that would take eight or nine hours.
    Mr. Gold. Sure.
    Mrs. Miller. And it's just so overwhelming. I just--I can't 
say enough about how we need to educate our children to 
understand.
    How do you think it's impacted the policy that's coming out 
of Israel? The policymakers, the policy?
    Mr. Gold. I think people have to separate as much as 
possible what happened in the Holocaust from everyday 
policymaking in the state of Israel. Again, you may have a 
vicious threat emerging in the east and you have to cope with 
it.
    For example, you have to understand, if somebody is going 
to say your country has to be wiped off the face of the Earth 
and then hangs a poster saying that on his latest generation 
weaponry, you'd better take it seriously. You can't ignore it. 
You can't just turn the other way.
    And I think therefore the Israeli leadership from the 
highest levels down to a corporal or private in the army 
understand what's at stake. It's very serious. But I think we 
approach it with a sense of tremendous responsibility. And I 
think we have to also use our diplomatic arm.
    I had hoped, frankly, around--not long after 9/11, that we 
would take up the Genocide Convention, which has been signed by 
the United States, by Israel, by many countries in the world, 
and start using it against countries that are using genocidal 
language.
    I will also say something that represents my personal view. 
It does not represent formally the positions of the state of 
Israel. I feel, having been an Israeli diplomat, that one of 
the responsibilities we have is to use our talents and our 
skills and our technical abilities to identify genocide when it 
is occurring anywhere in the world, and acting diplomatically 
to nip it in the bud.
    I have studied what happened in Africa during the 1990's.
    Mrs. Miller. Yes.
    Mr. Gold. I've studied the Battle of Srebrenica in Bosnia. 
And I would want the Jewish state to be a part of the 
international effort to prevent those things from ever 
reoccurring.
    Now, the Holocaust is a unique event, and I don't like to 
mix the Holocaust with other developments around the world, but 
the Holocaust teaches us how barbaric man can become. And, 
maybe, having been victims, we have a special responsibility to 
get the information and update people.
    And I'll just tell you one thing. Can I do it?
    Chairwoman Maloney. The gentleman's time is expired, but 
you can say one more thing because I want to hear it too. Tell 
me.
    Mr. Gold. You know, the state of Israel has many countries 
that turn to us--and you'd be surprised to know who they are--
and indicate a desire to, under the table, have relations with 
us. And I remember sitting with senior European diplomats and 
asking them, and saying, Look, we're in a dilemma. We want to 
expand our diplomatic relations around the world, but sometimes 
these are rather horrible countries. What would you do?
    And from the most important countries in western Europe, I 
heard statements like, look, Dore, we believe in realpolitik. 
And we would try and expand our diplomatic relations and 
basically turn away from the crimes that these countries are 
engaging in. That's horrible. And as the state of Israel, we 
should stand against that and we should advance policies that 
fight genocide, which is the most evil development, the most 
evil policy which we, part of the core of civilized countries, 
have to face.
    Chairwoman Maloney. Thank you. The gentlelady's time is 
expired.
    I now recognize the gentlewoman from Michigan, Ms. Tlaib, 
for questions.
    Ms. Tlaib. Thank you so much, Ms. Madam Chair.
    Thank you so much to Mr. Shaffir for coming here, for your 
incredible courage. I will make sure that my sons hear your 
testimony. I think it's really important for my children to 
consistently hear exactly what the Holocaust means and, again, 
so that we don't repeat it.
    And, Mr. Gold, you are absolutely right, humankind, what it 
can lead to if we do nothing.
    So, thank you, again, for--Chairwoman and my colleagues, 
for holding this important hearing today. It is imperative that 
we honor the victims of the Holocaust, to learn from the 
lessons of history, and continue to fight against anti-Semitism 
and all forms of hate.
    I always--I ran a campaign to take on hate in Michigan. I 
would always tell the young people you have to take on hate 
with action. So, this week, I'm really honored to be a 
cosponsor of the Never Again Education Act as we make sure that 
our children and every other generation understands what it 
means when we talk about the Holocaust.
    When I visited the Holocaust Memorial Center in Farmington 
Hills, Michigan, with my young son, Adam, I remember he spent 
the day reading everything he could. When I had called 
beforehand, they said, Well, he might be too young for the 
visuals. I said, nope, if he can see that stuff in video games, 
if he can see a lot of that stuff on TV, he can see the reality 
of what is actually real. I wanted him to see it.
    So, he was reading this whole wall--you can look it up 
online--a whole wall of these news clippings, and even the news 
clippings documenting unspeakable atrocities of the Holocaust. 
And something I'll never forget, when he looked up at me and he 
asked, Mom--he calls me mama. He said, Mama, why did it take so 
long for people to do something about this? Because even at 
that young age, you know what he noticed? He noticed the years 
before we finally set Jews free. And at such a young age, he 
recognized how slow the international community was actually 
taking action. He could not comprehend how the world stood back 
as this brutality unfolded before him.
    So, you know, Dr. Friedberg, as a historian, and when you 
spoke about it, it was so important because it resonates with 
me about what's happening even across the world, and Mr. Gold 
talked about it, but even what's happening to Muslims in China. 
I'm really fearful we're going to find out much too late about 
what's happening there.
    But what can you tell me about the environment that enabled 
Adolph Hitler and the Nazis to rise to power? What can we--you 
know, history teach us about how the democratic process can 
devolve into a regime capable of such atrocities?
    Ms. Friedberg. Thank you, Congresswoman, very much, and 
also for sharing your personal perspective. I've brought my 
squirmy, young son with me here today.
    What I can tell you is that when you study the Holocaust 
and beyond Nazi Germany, what you see is that hate is only part 
of the story. And it would be a mistake and too comforting for 
us to think that if we can just inoculate ourselves against 
racism, that people will not do bad things to other people.
    But what we find when we study the Holocaust in its 
specificity is much of what enabled the Nazi rise to power had 
to do with motivations that are much more relatable, 
motivations like career aspirations, greed, fear, opportunism.
    We can see, for example, that the Nazi regime--and some of 
our fellows at the museum have researched this--offered great 
opportunities for women to be in roles that they had not been 
able to be in before, and many women were complicit in the 
killing process as a result. The Eastern Front, for example, 
offered a kind of, I guess, the opposite of a wild west, but an 
environment in which a lot of social norms were broken down.
    So, I want us to be careful not to think that there was 
some kind of brainwashing of the German people, but that also, 
for example, the Nuremberg laws of 1935, most of what happened 
to Jews in Nazi Germany was done legally. It was done in a 
framework of laws. This was not criminal. It was actually the 
government's actions.
    Ms. Tlaib. Adam noticed that. He saw the slow but sure 
enough taking away people's properties and things. Yes, he 
noticed that.
    Ms. Friedberg. Yes. Smart kid. So, as an example, in the 
Nuremberg laws, I'll just give one example, Jewish doctors were 
no longer allowed to treat so-called Arian patients. Think 
about that. If you're a medical resident and your chief 
resident is Jewish and suddenly he's gone, maybe you don't 
object so much because this opens a door to you and you're just 
going to be quiet. You're maybe afraid to make noise and it's 
an opportunity.
    So, I want us to think about that we study the history in 
its precision in that way because we see how any one of us 
could have been part of that process, whether or not we were a 
racist or anti-Semite in our hearts.
    Ms. Tlaib. And I want you to know, Mr. Shaffir, one of the 
things that spoke to me, why I took my son to the Holocaust 
Museum, is when he was nine years old--he's 14 now. When he was 
nine years old, he heard me talk to his father about this awful 
cartoon that was in USA Today that depicted Muslims in a way 
that it would invoke people-- to violence toward Muslims.
    I was just talking to his father, almost whispering to him, 
but he heard. And he comes into the bedroom, and he's like, 
Mama, don't worry, don't worry, if anybody asks if I'm Muslim, 
I will lie and tell them I'm not. At that moment it struck me, 
I was like, Oh, honey, no. We can't allow, you know, this to 
continue, this kind of form of oppression.
    I think, you know, all of you are doing incredibly 
important work, and I think--I loved seeing the NAACP here 
because an African-American Baptist pastor said it beautifully 
in Detroit. He said, We're not a country that's divided; we're 
a country that's disconnected, and we need to connect in 
understanding all of us as fellow human beings that never, ever 
deserve to be targeted based on who we are or our faith or 
anything like that.
    So, thank you all so much for your incredible testimony. 
And thank you, Chairwoman, for your leadership.
    Chairwoman Maloney. Thank you. Thank you.
    Mr. Shaffir. May I add something to----
    Chairwoman Maloney. Yes. Yes.
    Mr. Shaffir. First of all, I would like to thank you very 
much for taking your son to actually witness something like 
that. It's very important. And I hope that and I wish that more 
mothers and more parents will take their children to places 
like that. Thank you very much.
    Ms. Tlaib. Thank you.
    Chairwoman Maloney. Thank you. I now recognize the 
gentlelady from California, Ms. Katie Porter, for questions.
    Ms. Porter. Thank you, Madam Chair.
    My colleague and I have the same age of sons, and my son 
Luke, when he came to Washington, I tried to interest him in so 
many things, and the only place that he wanted to go visit was 
The Holocaust Museum.
    Today's hearing topic, the ongoing battle against hate, is 
really personal for my community in Orange County. According to 
the San Diego County Sheriff's Department, the Poway synagogue 
shooter posted an anti-Semitic message on 8chan before he went 
on his rampage.
    And Samuel Woodward, the man accused of killing 19-year-old 
Blaze Bernstein at a park in my district, in Lake Forest, was 
reportedly a member of a militant Neo-Nazi group. 
Investigations found that Woodward openly described himself as 
a Nazi.
    I want to take a few minutes to focus on the role of social 
media and online chat rooms and messaging applications and 
their potential use as a platform for white supremacists to 
spread hate.
    Mr. Orsini, did social media play a role in the planning or 
the execution of the attack at the Tree of Life synagogue?
    Mr. Orsini. Unfortunately, I can't answer that question. 
That case is still under prosecution, and I've made an 
agreement not to talk about anything about the shooter himself.
    Ms. Porter. I appreciate your professionalism.
    Mr. Greenblatt, at a more general level, could you comment 
on what the research might tell us about how white supremacists 
are using the Internet and social media today?
    Mr. Greenblatt. Sure. Thank you very much for the question. 
I think social media has really, today, become almost a 
breeding ground of bigotry, and I say this as someone who 
worked in Silicone Valley for many years. I managed products, 
led teams of engineers. But Facebook is the frontline in 
fighting hate. Anti-Semitism thrives--and it used to be, if you 
were a white supremacist, you had to go to a compound in Idaho 
to find a rally.
    Now, you can find rallies taking place 24/7 with a swipe or 
a click, and your young kids, Congresswoman Tlaib, or your 
young kids, Congresswoman Porter, can literally, with a couple 
clicks on their phone, engage in the kind of horrific content 
you would never--that could never be published in print, would 
never be shown on television, could never find its way into 
film; it's now available to our children.
    So, I think there are things that companies can do to start 
the process. And, again, we believe in the First Amendment at 
the ADL, but we literally started a center in Silicone Valley 
in 2017. Our Center on Technology and Society is doing cutting-
edge research. I have Ph.D.s in artificial intelligence machine 
learning who are working at ADL now doing research. And I'll 
just share, if I might, Congresswoman, some of the things that 
Silicone Valley could do today to tackle this problem.
    No. 1, they all have terms of service that prevent hateful 
speech, whether it's anti-Muslim, anti-Jewish, anti-Black, and 
all they need to do is recognize they are not public places; 
they're private companies. And the same way you couldn't go 
into Starbucks and slander Jews or sit in the Panera and yell 
at Mexicans, haters that get on these platforms should get 
pushed out like that.
    No. 2, they should adjust their algorithms. You can find 
salacious content on cable television late at night, but it's 
not available in the middle of the day for young children to 
see it. Adjusting the algorithms is the equivalent of having 
some editorial guidelines.
    No. 3, slow it down. The shooter in Christ Church who 
murdered 15 Muslims in cold blood in two mosques; the shooter 
in Halle who tried to burst into a synagogue, the shooter in El 
Paso, they used GoPro cameras and live-streamed their snuff 
films. But, frankly, there is no natural law that says, when I 
click ``publish,'' it should be available for billions of 
people to see. There should be a delay on this content, and 
they should use AI to prevent this kind of thing from getting 
out there.
    No. 4, the companies should stop hate for profit. YouTube 
shouldn't flight ads and allow neo-Nazis to make money on this 
content. Twitter shouldn't allow extremists to literally 
profiteer off of prejudice. This should stop right now.
    And, last, the companies should submit to regular 
independent third-party audits. This is crucial.
    I should say, Facebook, YouTube, Twitter, we work with all 
these businesses, and they have taken some steps, but they 
haven't done enough. And if they would apply a bit of 
transparency and submit to the same kind of practices that all 
other businesses submit to so we had some context, then you 
would be able to independently verify whether they're doing 
enough to take the venom out of their systems.
    Ms. Porter. That is very helpful. Thank you so much for 
your concrete suggestions. I really appreciate it.
    I'm really excited about bringing the U.S. Holocaust 
Memorial Museum's traveling exhibition to the University of 
California-Irvine, and, so, Dr. Friedberg, I hope that, at some 
point, you'll be able to share with this committee sort of why 
that exhibit is so important and what you hope it will be able 
to accomplish.
    Ms. Friedberg. And I'll encourage those of you here in 
D.C., come see the exhibit here on Americans in the Holocaust, 
and I'll be happy to come speak in Irvine.
    Ms. Porter. And I've come and seen it twice----
    Chairwoman Maloney. Thank you.
    Ms. Porter [continuing]. And I've taken numerous people 
there. I think it's wonderful.
    Chairwoman Maloney. The Congresswoman's time has expired.
    I now recognize the gentlewoman from New Mexico, Ms. Deb 
Haaland, for questions.
    Ms. Haaland. Thank you, Madam Chair.
    Thank you all so much for being here today. And thank you, 
Mr. Shaffir, for your strength, courage, and sacrifice.
    I'd like to first make mention and honor the man who worked 
tirelessly until his death to fight hate and who advocated 
feverishly to move the U.N. Genocide Convention forward, and he 
also coined the word ``genocide,'' and that's Mr. Raphael 
Lemkin. I think he would be proud of every single one of you 
for carrying on his legacy, so thank you for that.
    In its 2018 report, the FBI found that the number of 
victims of anti-Latino or Hispanic hate crimes increased by 21 
percent over the previous year. In my home state of New Mexico, 
hate crimes have increased over 400 percent, and that includes, 
recently, the shooting death and beating deaths of homeless 
Native Americans in the city of Albuquerque.
    On August 3, 2019, a gunman entered a Walmart in El Paso, 
Texas, and shot and killed 22 people while also wounding 27. 
Minutes before the rampage, the shooter posted an anti-
immigrant manifesto warning about the, quote, Hispanic invasion 
of Texas, and vowed to shoot, quote, as many Mexicans as 
possible.
    Among those was Angie Englisbee. She was murdered that day. 
She was 84 years old and a New Mexican, the oldest of 10 
siblings. She had seven children, 21 grandchildren and great 
grandchildren. Children have lost their parents, parents have 
lost their children, and yet we can't figure out how to stop 
reliving this nightmare. No one should have to live it, 
especially not our immigrant communities, the communities that 
enrich our country by bringing their cultures here and sharing 
them with all of us. Hate has been weaponized against so many 
communities: my own community, Hispanic, Muslim, and immigrant 
communities.
    So, my first question is for you, Mr. Greenblatt. In your 
view, what might be driving the increase of anti-immigrant or 
anti-Latino sentiment?
    Mr. Greenblatt. Congresswoman, I'm really grateful you 
asked this question, because it allows me to say something I 
didn't have the opportunity to say before.
    Hate crimes are vastly underreported. Sometimes this comes 
from the fact that the people in the communities don't know to 
report their experience as hate crimes. Sometimes it comes from 
the fact that law enforcement isn't trained. But I am deeply 
concerned about the Latino and the immigrant communities who we 
know are afraid to report these incidents. I know this because 
I have heard this from immigrants and Latinos.
    And the ADL developed a partnership with the Government of 
Mexico. We've provided hate crimes training to over 2,000 
Mexican consular officials across the United States, over 
2,000, because Mexican nationals living here in the U.S., they 
are literally going to their consulates to say, my child's been 
bullied at school, my business was vandalized, because they're 
afraid to go to the police because of the rumors of ICE 
enforcement. It is unthinkable that people living here legally 
are afraid of the authorities.
    So, why is this happening? The anti-immigrant movement in 
the United States has been empowered in ways we have never seen 
before. You have the kind of hateful rhetoric coming from 
people in positions of authority, starting with the White 
House, demonizing immigrants, dehumanizing Latinos and people 
seeking refuge in this country, in ways that I think are 
unconscionable.
    ADL has done reporting on this. I would point you to our 
report on the anti-immigrant move in the United States. We need 
people in positions of authority to use that authority wisely 
and recognize that this country needs to be welcoming of 
everyone, particularly those vulnerable people seeking refuge 
in our shores. Frankly, that's why this country was founded, 
and that's what we need to live up to those values today.
    Ms. Haaland. Thank you so much. Thank you for that.
    I will go to Dr. Friedberg. During the Holocaust, many 
countries, including the United States, erected barriers to 
make it nearly impossible for Jewish people to immigrate. Is 
that correct?
    Ms. Friedberg. Not exactly. Thank you for the question. In 
fact, they didn't need to erect barriers during the Holocaust 
because the barriers were already in place. Immigration laws 
that were passed in this body in 1924 severely restricted 
immigration based on country of origin. And one fact that is 
very important to know is the United States did not have any 
refugee policy. I'm going to repeat that. There was no refugee 
policy in the United States during the period of the Holocaust.
    So, it's not that it wasn't enforced. We simply did not 
treat people who were fleeing from violence or persecution in 
any way different than we would treat an economic immigrant or 
someone coming for family reunification. So, it just was not a 
priority of the U.S. Government at that time.
    Ms. Haaland. Thank you so much. I'll just--I have one more. 
I have a--I think I'm out of time.
    I yield, Madam Chair. Thank you.
    Chairwoman Maloney. The gentlelady's time has expired.
    I would now recognize the gentleman from Missouri, Mr. Lacy 
Clay, for questions.
    Mr. Clay. Thank you, Madam Chair, and thanks for convening 
this hearing today on this important subject. I want to thank 
the panel for your testimony.
    In my district in St. Louis, which my friend and witness, 
Mr. Shelton, grew up in, I have a large and very historic 
Jewish community, which I have enjoyed a great friendship with 
over many decades.
    Three years ago, just a few blocks from my home, a historic 
Jewish cemetery in University City, Missouri, was vandalized, 
causing shock and pain to families. I had the opportunity to 
work with them to make that cemetery whole again, and I 
considered that not only my duty, but an obligation of faith.
    Earlier this week, the St. Louis Jewish Federation 
announced an $18 million expansion of this remarkable Holocaust 
Museum. Holocaust education is essential, not just to honor the 
memory of the victims, but because future generations must know 
that evil deeds can begin with hateful words, and hate can 
proceed and grow and good people remain silent.
    Many of us remember the quote, Unite the Right rally that 
took place in Charlottesville in August 2017. We watched with 
horror as white supremacists and neo-Nazis boldly and proudly 
marched with their burning torches chanting, ``Jews will not 
replace us,'' and, ``Into the ovens.'' Ultimately, one self-
described neo-Nazi rammed his car into a crowd of 
counterprotesters, killing Heather Heyer and injuring 30 other 
people.
    Dr. Friedberg, ``into the ovens,'' I believe, is a 
Holocaust reference. Would you agree?
    Ms. Friedberg. Yes.
    Mr. Clay. Do you believe the public at large understood the 
significance of those words?
    Ms. Friedberg. Some do and some don't. And, in fact, in the 
aftermath of Charlottesville, we created a whole educators 
guide and website to make sure that the public could 
deconstruct and understand the dog whistles and symbols that 
were being invoked.
    Mr. Clay. Thank you.
    Mr. Shaffir, after everything you have experienced, how 
does it make you feel to see scenes like Charlottesville and 
other scenes like that? What does that do for you?
    Mr. Shaffir. Well----
    Mr. Clay. Turn on your mic.
    Mr. Shaffir. Memories like that keep coming back. I 
remember when I was six and seven and eight and seeing all the 
violence against Jewish people, against Jewish children. It 
kind of wakes me up more, and I'm trying to do as much as I 
possibly can while I'm alive, because after we're gone, very 
hard for somebody to know what really happened there.
    Mr. Clay. No, and you're right. I appreciate you coming 
forward today and telling--sharing your story----
    Mr. Shaffir. Thank you.
    Mr. Clay [continuing]. With us here in Congress.
    Mr. Shaffir. Thank you.
    Mr. Clay. Thank you.
    Mr. Greenblatt, how does the Anti-Defamation League define 
neo-Nazi?
    Mr. Greenblatt. So, at the ADL, we track extremists across 
the board, including right-wing extremists, some of whom 
identify as, quote, neo-Nazi. These are people who openly 
embrace the Third Reich, its ideology, its iconography, and 
continue to promote it today.
    Mr. Clay. So, how would you characterize the threat of neo-
Nazism in the U.S. today, and do you believe the 
Charlottesville march reflects or contributes to increasing 
anti-Semitism?
    Mr. Greenblatt. Yes. I think the issue today is less Nazism 
itself and more extremism, of which Nazism represents one sort 
of hue or variance of that. So, I worry about the violent 
right-wing extremism, which has been responsible for 73 percent 
of the extremist-related murders in this country over the past 
decade. I worry about the right-wing extremism which was 
responsible for 49 of the 50 extremist-related murders in 2018. 
I worry about the right-wing extremism that promotes a toxic 
ideology in which African Americans, Jews, Muslims, LGBTQ 
people, Latinos, immigrants, anyone who is different from their 
vision of this country, is demonized, dehumanized, and they 
think ultimately should be murdered. And we've seen that play 
out in El Paso, in Pittsburgh, in Poway, in too many places in 
the past few years.
    Mr. Clay. How would you characterize the actions of a top 
White House official named Stephen Miller and how he has fed 
into this frenzy? Can you comment on that?
    Mr. Greenblatt. Well, we're on the record as calling for 
the resignation of Stephen Miller because of his utilization of 
white supremacist ideas and ideology. We've seen some of the 
documents that have been released suggesting he was trying to 
promote this in the media. And, you know, again, ultimately we 
judge people based on what they do, and not just what they say, 
but what they do, and the set of policies, we think, don't 
reflect, as I said earlier, our values in this country.
    As the grandson of a refugee, as the husband of a refugee, 
I just can't countenance a country in which we don't embrace 
refugees and other people seeking refuge here.
    Mr. Clay. My time is up, but I thank you all for your 
response.
    And I yield.
    Chairwoman Maloney. Thank you so much.
    And I now recognize the very patient gentleman from New 
Jersey, Mr. Malinowski.
    Mr. Malinowski. Well, it takes patience to fight anti-
Semitism, so thank you.
    Mr. Greenblatt, I wanted to start with you. You said this 
morning that ADL's research has found that the increase in 
anti-Semitism, anti-Semitic attacks in the United States is not 
caused by a change in attitudes among Americans; rather, more 
of the millions of Americans holding these views are feeling 
emboldened to act on their hate. So, I wanted to explore that 
with you.
    Obviously, there's a lot of explicit anti-Semitic rhetoric 
in the public sphere today. Charges of dual loyalty, for 
example. But I think a number of the questions have focused on 
less explicit examples. So, for example, Ms. Debbie Wasserman 
Schultz asked you about conspiracy theories, and I wanted to be 
even more explicit about that.
    When people in the public sphere rail against globalists--
--
    Mr. Greenblatt. Yes.
    Mr. Malinowski [continuing]. The deep state----
    Mr. Greenblatt. Yes.
    Mr. Malinowski [continuing]. When prominent people or 
prominent people who happen to be Jews are attacked for 
controlling the State Department or the mass media, does that 
make for a safer climate for Jewish Americans?
    Mr. Greenblatt. Well, clearly the invocation--Congressman, 
thank you for the question. Clearly, the invocation of those 
anti-Semitic tropes create an environment which is literally 
dangerous for Jews and for all people. And when you talk about 
it being the public sphere, let me give you an example. Right 
now, Chairwoman Maloney, or any of your staff, I'd invite you 
to open up YouTube and look at the comments on this hearing, 
which I am--I have just learned are rife with the kind of 
Holocaust denialism and anti-Semitic conspiracy that Mr. 
Malinowski is asking me about.
    I mean, this is a clear and present danger, and it's 
happening right now, unfolding as we speak.
    Mr. Malinowski. And you were also asked about anti-
immigrant rhetoric, so rhetorical attacks on immigrants 
threatening our culture, statements about immigrant invasions 
or infestations, same category in terms of impact on safety for 
Jewish Americans.
    Mr. Greenblatt. Yes. I mean, short answer is yes. These are 
the invocation of classic anti-Semitic tropes and long-standing 
stereotypes. As is mentioned by Dr. Friedberg, they were used 
to justify restrictive immigration laws in the first half of 
the 20th century----
    Mr. Malinowski. Right.
    Mr. Greenblatt [continuing]. And they're used to dehumanize 
people today.
    Mr. Malinowski. In fact, Mr. Orsini, the shooter in 
Pittsburgh explicitly cited his paranoid fears about immigrants 
invading America and blaming Jews for funding refugees in the 
United States. Is that not correct?
    Mr. Orsini. It's accurate, correct.
    Mr. Malinowski. And then let me just raise the question of 
Israel, because obviously demonization of Israel, including by 
movements such as BDS, contributes to a less safe climate for 
Jewish Americans. But is it enough, Mr. Greenblatt, to be pro-
Israel, to say that you stand against anti-Semitism in the 
United States?
    Mr. Greenblatt. Look, I am unapologetically, unabashedly, 
unashamedly Zionist, and my organization is proud to be pro-
Israel. But at the same time--and I will tell you that BDS, the 
architects of the BDS campaign and the impact it creates 
absolutely contributes to anti-Semitism. And there is no doubt 
that delegitimizing the Jewish state contributes to 
delegitimizing the Jewish people. But here today, when we talk 
about anti-Semitism, there are no BDS placards in Brooklyn when 
Jews are being assaulted in the streets. And so I think we need 
to be able to say, yes, we can be pro-Israel, but we can also 
be antibigotry, and the things aren't necessarily the same.
    Mr. Malinowski. Mr. Gold, have you heard of a man named 
Robert Jeffress?
    Mr. Gold. I have not.
    Mr. Malinowski. You mentioned the embassy opening in 
Jerusalem, and I was in favor of recognizing Jerusalem as the 
capital of Israel. Robert Jeffress is an evangelical pastor who 
was invited by the administration to say the opening prayer at 
that ceremony. He claims to be pro-Israel. He's also said, and 
I'm just quoting him, you cannot be saved being a Jew. He said 
that Judaism, like other non-Christian religions, not only lead 
people away from the true God; they lead people to an eternity 
of separation from God and hell. And this is somebody who 
claims to be pro-Israel and who gave the invocation at that 
ceremony.
    So, can you see that it may be possible to be superficially 
pro-Israel while, in fact, also contributing to the climate 
that is making life less safe for Jews in America?
    Mr. Gold. There's an expression in English, it's called due 
diligence, and hopefully, when you organize ceremonies of such 
importance for the U.S. Government or for any western or any 
power in the world, you have to check who's coming. And, 
obviously, these are detestable positions.
    But I wanted to ask something else, because I'm getting a 
sense here--and I really don't want to jump into the American 
domestic scene, but it seems like everything is coming from the 
right. And my understanding of the rebirth of anti-Semitism, 
it's both right wing and left wing. It's both. And you can't 
just lean over and say it's one and ignore the other.
    So, hopefully, when we decide what are the sources of anti-
Semitism that are confronting us, worldwide, we look at both 
sources and we fight against them.
    Mr. Malinowski. Well, let me just say I fully agree, and I 
think most of us would agree that the extremes of left and 
right tend to come together, and anti-Semitism is the place 
where they come together.
    Thank you, and I yield back.
    Chairwoman Maloney. I thank the gentleman.
    And, without objection, the gentleman from Pennsylvania, 
Mr. Doyle, shall be permitted to participate in today's 
hearing.
    And the gentleman from Pennsylvania is recognized for 
questions or statement.
    Mr. Doyle. I thank the chair.
    And, first of all, I want to say thank you to you, Mr. 
Shaffir, for being here today. It's a very powerful testimony, 
and we must continue to hear these stories so that we never, 
ever forget. And I think it's most important for young people, 
the young generations coming up, to make sure that they know 
this too.
    And I also want to welcome Brad Orsini----
    Mr. Orsini. Sure.
    Mr. Doyle [continuing]. And say thank you for being here 
today and what you did before and after for the Tree of Life 
attack in our home city of Pittsburgh.
    For the panelists and people here in the audience, Squirrel 
Hill, which is a neighborhood in Pittsburgh where this horrific 
attack took place, is a kind of neighborhood that you would 
never expect anything like this to be possible. This is a 
multiracial, multicultural, vibrant community where people of 
all faiths and ethnicities get along with one another and work 
on community projects together.
    And when I saw the television that morning--I was in my 
kitchen--that there was an active shooter down in Squirrel Hill 
near the Tree of Life, it almost didn't register at first.
    So, I guess we're learning that there's really no place 
that's a hundred percent safe, no matter--even though we have 
this sense of security in our neighborhoods that nothing bad 
ever happens, we see something bad can happen.
    And so, Brad, I wonder if you could explain the ways that, 
you know, in places that you'd never expect--these aren't areas 
where you expect to have these kinds of incidents, how you 
look--what signs you look for for signs of hate and violence, 
and how do you engage with social media for security purposes 
too? Do you think that the attack on the Tree of Life changed 
the way that the Pittsburgh Jewish community views their 
security?
    Mr. Orsini. Sure. I think it was a watershed moment for the 
entire Jewish community across the country. Nobody that knows 
Pittsburgh and knows Squirrel Hill would have ever imagined 
that. But I would say, I think anybody that's been involved in 
a mass casualty attack would say the same thing: It never 
happens to us.
    And that's why our work is so important, the work at the 
Secure Community Network, that we do now across the country to 
make awareness, teach and educate our community to be 
resilient, teach our community to be first responders. We're, 
in effect, a community. It can happen to anyone, anywhere. And 
a lot of things we've learned over the last five or six years 
during mass casualty events, active shooter events, is that we 
need to do a better job in educating our community on what to 
do in case they are attacked.
    In the case of social media, we are working very hard in 
the Jewish community and national platforms through the Secure 
Community Network, the organization I work with now, to talk 
about an established social media review and to find these 
signs of hate.
    I think in Pittsburgh, most people didn't know who Patriot 
Front, Identity Evropa was. We see those signs all over 
Pittsburgh. It's important for us to educate the community why 
not to dismiss any signs of hate, even though it's a piece of 
paper on a telephone pole. We need to let our community, our 
country know who these people are so we can identify them, 
assess that threat, and mitigate the next attack. And social 
media plays a big role in this.
    We work hand in hand with the FBI, but the FBI needs help. 
They can't openly search social media sites. They've got to 
rely on the community. The community needs to be great partners 
with law enforcement so we cannot dismiss any signs of hate.
    Mr. Doyle. Thank you.
    Mr. Shaffir, I see in your testimony that you said 
something, I think, that was really powerful, that the enemy of 
the Holocaust and Holocaust survivors like yourself was time. 
And what do you think are the best ways to amplify and spread 
your story and the stories of other survivors to make sure we 
get them to young people so that they understand this too?
    Mr. Shaffir. As I mentioned earlier, I'm involved with the 
Holocaust Museum. We travel for the museum to various colleges, 
various high schools. We speak to various groups. And only 
important thing that we do right now is to educate. Very 
important to educate. And I keep constantly saying that 
education is so important, and I will continue to do so.
    Mr. Doyle. Thank you.
    Madam Chair, thank you so much for your gracious time, and 
I will yield back.
    Chairwoman Maloney. Thank you for your contribution to this 
important hearing.
    Without objection, the following documents from 
organizations and individuals fighting hate shall be made a 
part of the hearing record:
    Written testimony from organizations and individuals, 
including Liz Igra, Holocaust survivor and president of the 
Central Valley Holocaust Educators' Network; Julie Raymond, 
director of political outreach for AJC, Global Jewish Advocacy; 
Deborah Lauter, executive director of New York City Office for 
Prevention of Hate Crimes; Eric Fusfield, director of 
legislative affairs and deputy director of the International 
Center for Human Rights and Public Policy of B'nai B'rith; a 
report from the Jewish Federations of North America; an op-ed 
from our witness, ADL president, Jonathan Greenblatt.
    I want to thank all of my colleagues, and especially an 
incredible, a remarkable, distinguished panel, for your wisdom, 
your insights, your ideas, and your time for being with us and 
sharing this incredible hearing with us. So, I think we know 
that we have a lot more work to do and that we can't sit back 
and let these acts of hate go unconfronted and responding to 
them. And I think we've learned that we must work together to 
combat hate, bigotry, and violence of all kinds. And I want to 
thank all of you for your advocacy and your guidance.
    The committee will be continuing this series of hearings on 
hate, and I welcome all of you and all of the members of the 
panel here and of Congress to give me your ideas for any 
additional thoughts for proposals you believe the committee 
should review.
    I just want to thank you again. And I'd like to thank our 
witnesses for testifying today. And, without objection, all 
members will have five legislative days within which to submit 
additional written questions for the witnesses to the chair 
which will be forwarded to the witnesses for their response. 
And I ask our witnesses to please respond as promptly as you 
are able.
    I do want to say a very, very special thank you to the 
Holocaust Museum and for working with Congress, Dr. Edna 
Friedberg. We are hopeful that it will pass our bill in the 
Senate, and we'll have a centralized data base that teachers 
can access for lesson plans to teach tolerance, acceptance, 
understanding that is appropriate. We hope it will pass with 
the allocation and funding so that we can take some of your 
exhibits to every congressional district in the country to 
learn more about how we can combat hate.
    I want to thank you again. It's been a remarkable hearing. 
I'm very inspired. Thank you for being here and for all of your 
wisdom inspiring all of us.
    This meeting is adjourned.
    [Whereupon, at 1:31 p.m., the committee was adjourned.]

                                 [all]
                                 
                                 
</pre></body></html>
